                                                      Appendix III




Audit of SEC’s Employee
Recognition Program and
Recruitment, Relocation, and
Retention Incentives




                                                              August 2, 2011
                                                              Report No. 492
 SEC Employee Recognition Program and 3R Incentives   August 2, 2011
 Report No. 492
                                         Page 1
                                                UNITED STA TES
                             SECURITIES AND EXCHANGE CO MM ISSION
                                          WA SHINGTON , D . C .   20549


    OFFICE O F
I NSPECTOR GENERA L




                                        MEMORANDUM
                                                August 2, 2011

            To:            Cristin Fair, Acting Associate Executive Director, Office of Human
                            Resources

                           Kenneth A. Johnson, Chief Financial Officer, Office of Financial
                            Management (OFM)

            From:          H. David Kotz, Inspector General, Office of Inspector General (OI W W

            Subject:       Audit of SEC's Employee Recognition Program and Recruitment,
                           Relocation, and Retention Incentives, Report No. 492

            This memorandum transmits the U.S . Securities and Exchange Commission
            OIG's final report detailing the results on our audit of the SEC's employee
            recognition program and recruitment , relocation and retention incentives. This
            audit was conducted as part of our continuous effort to assess management of
            the Commission's programs and operations and as a part of our annual audit
            plan.

            The final report contains 14 recommendations which if fully implemented should
            enhance the Commission 's employee recognition program and administration of
            recruitment , relocation and retention incentives. The respective offices
            concurred with all 14 of the report's recommendations. Your written response to
            the draft report is included in Appendix V.

            Within the next 45 days, please provide the OIG with a written corrective action
            plan that is designed to address the recommendations. The corrective action
            plan should include information such as the responsible official/point of contact,
            timeframes for completing required actions, and milestones identifying how you
            will address the recommendations.




            Employee Recognition Program and 3R Incentives                         August 2, 2011
            Report No. 492
                                               Page ii
       Employee Recognition Program and 3R Incentives                                  August 2, 2011
       Report No. 492
                                                     Page ii
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our auditors during this audit.

Attachment

cc:    James R. Burns, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Elisse B. Walter, Commissioner
       Kathleen L. Casey, Commissioner
       Jeff Heslop, Chief Operating Officer, Office of Chief of Operations
       Diana Davis, Business Manager, OHR
       Rebecca Pikofsky, Assistant Director, Employee and Labor
        Relations, OHR




Employee Recognition Program and 3R Incentives                        August 2, 2011
Report No. 492
                                        Page iii
Audit of SEC’s Employee Recognition
Program and Recruitment, Relocation, and
Retention Incentives

                              Executive Summary
Background. The Securities and Exchange Commission’s (SEC or
Commission) Employee Recognition Program (ERP) is designed to motivate
employees and recognize contributions above and beyond normal job
requirements with monetary and nonmonetary awards and to improve the
efficiency of operations through an employee suggestion program. Awards may
be granted for contributions either within or outside an employee’s job
responsibilities.

The Office of Human Resources (OHR) has authority for managing the
Commission’s awards budget and granting final approval of awards. OHR is also
responsible for training supervisors to use the ERP effectively to achieve
organizational goals and objectives, providing guidelines for initiating
appropriately selected performance-related awards, encouraging employees to
submit suggestions to the suggestion program, and evaluating and processing
awards and suggestions. Further, OHR is responsible for monitoring and
evaluating the adequacy of documentation for award recommendations and the
use of approval authority that is delegated to divisions and offices.

During the period covered by this Office of Inspector General (OIG) audit, fiscal
years 2008 through 2010, the Commission permitted monetary recognition in the
form of special act or service awards, suggestion awards, time-off awards, 1 and
on-the-spot awards. The Commission also utilized recruitment, relocation, and
retention incentives. Recruitment, relocation, and retention (3R) incentives are
among the human capital flexibilities intended to help federal agencies address
human capital challenges and to build and maintain a high-performing workforce
with essential skills and competencies.

Objectives. The overall objective of this audit was to assess whether monetary
awards under the SEC’s ERP and 3R incentives were awarded consistent with
applicable governing policies and procedures. We also examined whether
awards and incentives were linked to the Commission’s human capital plan, as
applicable.

Results. In this audit, the OIG found that OHR has not fully implemented
recommendations made as a result of a 2007 Office of Personnel Management
1
 Time-off awards are considered monetary awards because they have monetary value in terms
of lost production time to the Commission.
Employee Recognition Program and 3R Incentives                                       August 2, 2011
Report No. 492
                                              Page iv
(OPM) human resources operations audit pertaining to the SEC’s award
activities. As a result, we found that similar deficiencies continue to exist. For
example, we found that there were insufficient resources dedicated to developing
and overseeing the ERP and there was a lack of documentary support for
sampled awards. We also identified significant time lags between special act
dates and award dates due to award budget allocations being made late in the
fiscal year.

The audit also found that OHR does not have updated comprehensive policies
and procedures available to its supervisors and employees regarding SEC
awards and 3R incentives. Additionally, OHR has not provided supervisors and
employees with formal training in this area. As a result, the Commission’s use of
awards and incentives is not as effective as it could be in achieving intended
goals.

Further, we found that the SEC’s budgeting processes for awards and incentives
for SK 2 employees are flawed and ineffective. The SEC’s overall award budget
for SK staff and average award per person are nominal. Additionally, SEC
offices and divisions often are not notified of their award budgets until late in the
fiscal year, which has resulted in awards being made significantly after the
rewarded action occurred. Further, during the period covered by our audit,
supervisors were able to use their award budgets only for special act awards,
virtually eliminating their ability to reward employees for outstanding performance
in the course of their normal job duties and contrary to one of the primary
purposes of the ERP. We also found inconsistencies among offices and
divisions with respect to their adherence to the terms of the budget allocation
memoranda issued to divisions and offices, including instances in which offices
exceeded their award budgets or provided awards in advance of receiving their
award budgets. We determined that payment of awards at the end of the fiscal
year presents various accounting issues, including payroll errors. Lastly, we
found that although Office Heads and Division Directors are ultimately notified of
their awards budget, they are not notified of funds available for 3R incentives.

Furthermore, we found that OHR’s supporting documentation for a large number
of the monetary awards and incentives reviewed for this audit were incomplete.
We found that documentation was insufficient to show the basis for the awards
and incentives and that required approvals were properly obtained. We also
found that an SEC employee was given an award for work that was the subject of
an OIG investigative report. Although the SEC postponed giving the award
pending a determination of whether disciplinary action was warranted against the
employee, the award was eventually granted after an outside consultant
determined that the employee’s actions did not warrant formal disciplinary action,
even though the outside consultant did not dispute the serious performance
issues pertaining to the employee raised in the OIG report.

2
    SK is a staff level pay scale used by the SEC in lieu of the GS pay scale.
Employee Recognition Program and 3R Incentives                                   August 2, 2011
Report No. 492
                                                     Page v
Additionally, we found that the SEC made a cash award to an SEC Schedule C
employee in fiscal year 2010 in violation of OPM guidance restricting awards,
bonuses, and similar payments for political appointees.

The audit also found that although OHR had an Employee Suggestion Program
in place from 2008 to 2011 that included a monetary incentive component, OHR
did not make any cash awards under the program. Additionally, the program was
given little priority and was not effectively managed.

Lastly, we found that the SEC does not currently have in place a human capital
plan. Accordingly, activities associated with the ERP and 3R incentives are not
being assessed to determine whether they effectively align with the SEC’s overall
human capital goals and objectives.

Summary of Recommendations: Specifically, the OIG recommends that the
Office of Human Resources:

(1) Implement an internal review process to review a select number or
    percentage of awards annually to ensure that appropriate documentation
    exists for the awards and needed information is readily available to support
    the awards.

(2) Annually provide information to SEC supervisors on relevant parts of the
    SEC award program, including (1) types of awards available and procedures
    for nominating employees for awards, (2) appropriate types of division-and
    office-level awards for peer recognition, and (3) successful award practices.

(3) Dedicate specific resources to develop and oversee the Employee
    Recognition Program.

(4) Finalize its policies and procedures for the Employee Recognition Program
    within three months and publish them on the SEC’s Insider. The policies
    and procedures should include information on current practices for
    determining bonuses for Senior Officers (SO), policies for determining
    performance-based awards for SK employees, and acceptable methods of
    providing informal nonmonetary awards in addition to traditional
    nonmonetary awards.

(5) Review and update its existing policies and procedures on recruitment,
    relocation, and retention incentives. The update should ensure that the new
    policies and procedures reflect appropriate references to SK and SO
    employees and include expanded authority for retention bonuses.




Employee Recognition Program and 3R Incentives                       August 2, 2011
Report No. 492
                                        Page vi
(6) Provide formal training on its revised policies and procedures and issue
    information notices to supervisors and employees as needed to reflect
    changes in practices and policies.

(7) In conjunction with the Office of Financial Management (OFM), take the
    following actions:

       7a. Develop alternatives for reviewing the SEC award
          budget so that it is competitive with other federal
          agencies’ award budgets.

       7b. Develop and implement a mechanism to reward
          employees for superior or meritorious performance within
          their job responsibilities through lump-sum performance
          awards.

       7c. Determine ways to reduce the time required for
           formulation of budget allocations, including, for example,
           moving responsibility for formulating award budget
           allocations to OFM and having the Office of Information
           Technology walk-in development center develop an
           electronic program to pull payroll data directly from the
           Department of the Interior to facilitate more timely
           completion of budget allocations.

       7d. Implement a process to make initial award allocations in
          the first quarter of each fiscal year, thereby giving offices
          the ability to make awards throughout the year. Base
          initial allocations on historical data and then refine the
          allocations, as needed, when the SEC’s annual budget
          has been approved.

       7e. Allocate award funds directly to SEC divisions and
          offices instead of placing the initial award funds in OHR’s
          budget, and hold office and division heads responsible
          for monitoring use of the funds.

       7f. Re-examine budgeted amounts for recruitment, relocation, and
           retention incentives to ensure that sufficient funds are available, and
           make supervisors aware of available funding so that they can
           effectively use incentives to recruit and retain needed talent

(8) Develop and train human resources specialists on a centralized filing system
    (manual, electronic, or both) for all awards that contains appropriate
    documentation to support the awards, including SF 50 and SEC Form 48
    with narrative justification and appropriate approvals.

Employee Recognition Program and 3R Incentives                            August 2, 2011
Report No. 492
                                        Page vii
(9) Implement management controls to ensure that employees who are subject
    to disciplinary action are restricted from receiving awards related to the
    performance that resulted in the disciplinary action.

(10) Review the August 12, 2010, cash award to a Schedule C employee to
     determine whether it was in violation of the OPM guidance and, if so, seek
     recovery of the improper award.

(11) Consider ways that, as part of the ERP, it may be able to provide awards to
     employees for adopted suggestions submitted to the OIG’s suggestion
     program.

(12) Revise the service agreement format in SEC Form 2299, Securities and
     Exchange Commission Recruitment Bonus Service Agreement, to
     incorporate specific reasons that the SEC “may” and “must” terminate
     service agreements for recruitment and relocation bonuses.

(13) Develop and train applicable human resources specialists on the use of a
     centralized filing system for all relocation, recruitment, and retention
     incentives. The centralized filing system should contain all appropriate
     documentation to support the incentives, including the SF 50 and the
     applicable SEC form with the narrative justification for the bonus and the
     appropriate approvals.

(14) Identify resources and establish a timeline to complete the required human
     capital plan. Ensure that ERP activities are evaluated at least annually to
     ensure that they align with human capital plan objectives and strategies.




Employee Recognition Program and 3R Incentives                       August 2, 2011
Report No. 492
                                        Page viii
TABLE OF CONTENTS
Executive Summary ..................................................................................................... iv

Table of Contents ........................................................................................................ ix

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 3

Findings and Recommendations ......................................................................... 4
     Finding 1: OHR Did Not Fully Address OPM Recommendations
     Pertaining to SEC Award Practices .................................................................... 4
                   Recommendation 1....................................................................... 7
                   Recommendation 2....................................................................... 7
                   Recommendation 3....................................................................... 8

         Finding 2: OHR’s Policy for Its Award Program Is Outdated and Not
         Readily Accessible ............................................................................................ 8
                     Recommendation 4..................................................................... 11
                     Recommendation 5..................................................................... 11
                     Recommendation 6..................................................................... 11

         Finding 3: OHR’s Budgeting Processes for Awards and Incentives Are
         Ineffective ......................................................................................................... 12
                          Recommendation 7..................................................................... 16

         Finding 4: OHR Did Not Maintain Adequate Documentation to Support SK
         Awards Made During Fiscal Years 2008 Through 2010 ................................... 17
                      Recommendation 8..................................................................... 22
                      Recommendation 9..................................................................... 22

         Finding 5: A Cash Award Was Inappropriately Made to a Schedule C
         Political Appointee............................................................................................ 22
                       Recommendation 10................................................................... 23

         Finding 6: OHR’s Employee Suggestion Program Did Not Provide Cash
         Awards During Fiscal Years 2008 Through 2010 and Was Not Effectively
         Managed .......................................................................................................... 23
                       Recommendation 11................................................................... 26




Employee Recognition Program and 3R Incentives                                                        August 2, 2011
Report No. 492
                                                      Page ix
         Finding 7: OHR Does Not Maintain Adequate Documentation for 3R
         Incentive Awards, and Related Service Agreements Do Not Meet OPM
         Requirements ................................................................................................... 26
                      Recommendation 12................................................................... 31
                      Recommendation 13................................................................... 31

         Finding 8: The SEC’s ERP and 3R Incentives Are Not Linked to an SEC
                    Human Capital Plan ....................................................................... 32
                      Recommendation 14................................................................... 33

Appendices
    Appendix I: Abbreviations/Acronyms. .............................................................. 34
    Appendix II: Scope and Methodology............................................................... 35
    Appendix III: Criteria ......................................................................................... 37
    Appendix IV: List of Recommendations ........................................................... 38
    Appendix V: Management’s Comments ........................................................... 42
    Appendix VI: OIG Response to Management’s Comments.............................. 46




Employee Recognition Program and 3R Incentives                                                    August 2, 2011
Report No. 492
                                                     Page x
                   Background and Objectives
Background
Employee Recognition Program. The Securities and Exchange Commission’s
(SEC or Commission) Employee Recognition Program (ERP) is designed to
motivate employees and recognize contributions above and beyond normal job
requirements with monetary and nonmonetary awards and to improve the
efficiency of operations through an employee suggestion program. Awards may
be granted for contributions either within or outside an employee’s job
responsibilities. The Commission determines how much of its budget will be
allocated to the ERP and how the budgeted amounts will be allocated among the
various divisions and offices.

The Office of Human Resources (OHR) has authority for managing the SEC’s
awards budget and granting final approval of awards. OHR is also responsible
for training supervisors to use the ERP effectively to achieve organizational goals
and objectives, providing guidelines for initiating appropriately selected
performance-related awards, encouraging employees to submit suggestions to a
suggestion program, and evaluating and processing awards and suggestions.
Further, OHR is responsible for monitoring and evaluating the adequacy of
documentation for award recommendations and the use of approval authority
that is delegated to divisions and offices.

During the period covered by this Office of Inspector General (OIG) audit, fiscal
years 2008 through 2010, the Commission permitted monetary recognition in the
form of special act or service awards, suggestion awards, time-off awards, 3 and
on-the-spot awards. A special act or service award is a lump sum cash award in
recognition of an employee’s special act or service, such as exemplary or
courageous handling of an emergency situation in connection with or related to
official employment. A time-off award is an excused absence granted to an
employee without charge to leave or loss of pay, in recognition of the employee’s
contribution to the quality, efficiency, or economy of government operations. An
on-the-spot award is a small lump sum cash award similar to a special act or
service award that is used to quickly recognize one-time and short-term tasks or
assignments or other job responsibilities performed by an employee in an
exemplary manner. A suggestion award is a lump sum cash award given to an
employee in recognition of the adoption of a suggestion designed to accomplish
a job better, faster, or more economically and that results in tangible or intangible
benefits to the government. The suggestion may save material or property,
promote health, increase safety, or improve morale.



3
 Time-off awards are considered monetary awards because they have monetary value in terms
of lost production time to the Commission.
Employee Recognition Program and 3R Incentives                                       August 2, 2011
Report No. 492
                                              Page 1
For the fiscal year 2008 and 2009 performance periods, all SK employees who
received an acceptable performance rating received an equivalent merit increase
(i.e., the same percentage adjustment to salary), in accordance with an
agreement between the Commission and the National Treasury Employees
Union (Union). If the merit increase would have caused an employee’s pay to
exceed the employee’s salary grade maximum, the employee would receive the
excess amount as a lump sum payment. Outside of the across-the-board merit
increases, one-time awards linked to an individual’s performance rating
(performance awards) were not permitted. Therefore, the primary mechanisms
to distinguish performance and reward SK employees during the period covered
by our audit were special act or service, time-off, and on-the-spot awards. The
Commission expects to provide SK employees a merit increase of approximately
2 percent for fiscal year 2010. Once the details have been worked out, the raises
will be distributed retroactive to January 2, 2011. SEC Senior Officers (SO) were
not subject to the Commission’s agreement with the Union and were eligible to
receive both merit increases and bonuses based on performance during fiscal
years 2008 and 2009. SOs were not eligible for merit increases or bonuses for
fiscal year 2010 due to restrictions on bonuses for senior executives.

In fiscal years 2008, 2009, and 2010, the SEC made 3,427, 3,102, and 2,524
cash awards, respectively, totaling approximately $4 to $5 million for each of the
three years. Both SK and SO employees received these awards and some
employees received multiple awards. In many cases, groups of employees
received awards.

Recruitment, Relocation, and Retention Incentives. Recruitment, relocation,
and retention (3R) incentives are among the human capital flexibilities intended
to help federal agencies address human capital challenges and to build and
maintain a high-performing workforce with essential skills and competencies.
According to the Office of Personnel Management (OPM), the intent of 3R
incentives is to provide agencies with discretionary authority to use nonbase
compensation to help recruit, relocate, and retain employees in difficult staffing
situations. 4

A relocation incentive may only be paid to a current federal employee appointed
without a break in service who must relocate from one agency to another, or from
one part of an agency to another, in a different commuting area. A recruitment
incentive can be given to an employee new to the federal government. In either
case, it must be determined that the agency would likely encounter difficulty in
filling the position in the absence of such an incentive. A retention incentive can
be paid to a current employee if the unusually high or unique qualifications of the
employee or the special needs of the agency make retaining that employee
essential and it is determined that the employee would likely leave federal
service without the incentive. In November 2007, OPM issued final regulations
4
 GAO-10-226, Continued Improvements Exist for FDA and OPM to Improve Oversight of Recruitment,
Relocation, and Retention Incentives, January 2010.
Employee Recognition Program and 3R Incentives                                     August 2, 2011
Report No. 492
                                             Page 2
that also give agencies authority to pay retention incentives to employees who
would likely leave for a different federal position before the closure or relocation
of the employee’s office, activity, or organization in the absence of a retention
incentive. 5

During fiscal years 2008 through 2010, the SEC paid three employees relocation
bonuses totaling approximately $70,000, paid 41 new employees a total of
approximately $659,000 in recruitment bonuses, and approved 31 retention
bonuses that ranged from approximately 2 to 24 percent of the employees’ basic
pay.

Objectives
The overall objective of this audit was to assess whether monetary awards
awarded under the SEC’s ERP and 3R incentives were consistent with
applicable governing policies and procedures. We also examined whether
awards and incentives were linked to the Commission’s human capital plan, as
applicable.




5
    5 CFR § 575.315.
Employee Recognition Program and 3R Incentives                          August 2, 2011
Report No. 492
                                        Page 3
               Findings and Recommendations

Finding 1: OHR Did Not Fully Address OPM
Recommendations Pertaining to SEC Award
Practices
        OHR did not fully address recommendations that OPM made
        in its 2007 review of OHR’s human resources operations
        pertaining to SEC award activities. As a result, we found
        that issues similar to those found by OPM continue to exist.

In November 2007, OPM conducted a human resources audit of OHR’s
operations. 6 OPM examined the Commission’s award activities as part of its
assessment to determine whether the SEC met OPM’s results-oriented
performance standard (i.e., the SEC has a diverse, results-oriented, high-
performing workforce and a performance management system that differentiates
between high and low levels of performance and links individual/team/unit
performance to organizational goals and desired results effectively).

Based on the human resources audit, OPM made a number of
recommendations 7 to OHR in a March 2008 report. During our audit, we found
that OHR had addressed OPM’s recommendations concerning awards and the
performance management system, by electing to separate pay from performance
until a new performance management system could effectively make distinctions
in performance. We also found, however, that the SEC had not fully addressed
other OPM recommendations pertaining to award activities.

OPM found that the SEC had only partially achieved the outcome of creating a
reward environment that is beyond compensation and benefits which contributes
to attracting, retaining, and motivating employees. In its comments, OPM stated
that the SEC did have formal policy on the use of on-the-spot and special-act or
service awards. OPM also noted that some SEC divisions or offices used
division- or office-level awards for peer recognition and that some employees
were recognized for performance through less formal means, such as
opportunities to work on special projects or better assignments. However, OPM
found that the use of such rewards and recognition practices was not consistent
across SEC divisions and offices. OPM also noted that managers said monetary

6
  OPM conducts independent evaluations of agencies’ HR programs to ensure they support the mission and
meet merit system principles and related civil service laws. OPM evaluates the effectiveness of agencies’
results oriented performance culture, leadership and knowledge management, and talent management,
including delegated competitive examining and excepted service hiring, Source: http://www.opm.gov/Open/
About OPM.aspx.
7
  OPM’s review resulted in both required and recommended actions on the part of the SEC which are
referred to generally as “recommendations” for purposes of this report.
Employee Recognition Program and 3R Incentives                                           August 2, 2011
Report No. 492
                                                Page 4
recognition available for employees in professional positions fell significantly
short of bonuses employees would be eligible to receive in the private sector.
Additionally, OPM stated that employees, supervisors, and managers believed
money, better work assignments, and peer recognition were the most motivating
rewards.

With respect to use of office-level awards, we found in a preliminary inquiry
completed in March 2010 that a former SEC regional office director used funds
from the office’s supply budget to purchase nonmonetary honorary and informal
recognition awards in the form of inscribed glass blocks for staff. These informal
awards were not issued pursuant to a Commission-sponsored awards program,
and we found that the SEC’s internal regulation, Personnel Operating Policies
and Procedures (POPPS), Employee Recognition Program, dated September 9,
1991, did not give SEC division or office directors or the SEC’s Executive
Director authority to approve awards outside Commission-sponsored awards
program. In addition, we determined that the absence of clear criteria for making
such awards could lead to the appearance of impropriety on the part of the
manager making the award and a perception of unfairness or favoritism on the
part of staff not receiving an award. 8

During its November 2007 review, OPM also found that employees were
confused about the availability and eligibility of special act and service awards.
OPM stated that some SEC divisions or offices made extensive use of all types
of awards but that other units did not. We identified similar trends during this
audit. For example, we found that some SEC divisions or offices made frequent
time-off awards, while others did not. During fiscal years 2008 through 2010, for
example, the Office of Information Technology made a total of 131 time-off
awards, while the Office of Financial Management (OFM) made only 13. 9

As a result of its review, OPM directed 10 OHR to educate the SEC workforce
about relevant parts of the award program and recommended that OHR share
information about successful awards practices across the Commission. In
response, OHR stated that it would send out information about a new employee
suggestion program with instructions by June 1, 2008; post the information about
the employee suggestion program on the SEC’s intranet, the Insider; and send
an e-mail to SEC employees by August 1, 2008, to encourage them to read
about the awards program on the Insider. OHR also stated that between
November 2007 and the end of fiscal year 2008 it would collect and analyze
information on awards practices at the SEC and, as appropriate, share
information on best practices across the Commission.


8
  SEC Office of Inspector Investigative Memorandum entitled Employee Recognition Program and Grants of
Employee Awards, PI 09-07 (Mar. 10, 2010).
9
  While there is a disparity between the offices in size, this size difference does not solely account for the
difference in numbers of time-off awards.
10
   This was referred to by OPM as a required action.
Employee Recognition Program and 3R Incentives                                               August 2, 2011
Report No. 492
                                                  Page 5
The SEC issued a formal policy for its employee suggestion program in March
2008, but OHR was unable to provide us with any documentation to show that it
had sent an e-mail to SEC employees by August 1, 2008, to encourage them to
read about the awards program on the Insider. Additionally, OHR was unable to
provide us with documentation to show that it collected and analyzed information
on award practices or shared information on best practices throughout the SEC.

OPM also examined whether awards and recognition were “processed according
to law and OPM and agency regulations and procedures.” OPM found that OHR
only partially met this standard. OPM found that the SEC had not evaluated its
awards program to determine compliance with OPM and agency regulations and
policies. In addition, OPM noted that it identified documentation issues, such as
missing signatures, reviewer titles, and dates, during its review of a sample of
individual and group special-service or act awards. OPM also found significant
lags between the actual dates of special acts or services and the award dates.
We found that similar issues persist. As discussed in more detail in Finding 4,
OHR was not able to timely produce documentation to support various awards.
We also found significant gaps between special act dates and award dates and
that multiple awards were made to the same individuals at the end of the fiscal
year. We believe that these lags and multiple year-end awards to individuals
occurred in many cases because managers did not receive their award
allocations until late in the fiscal year due in part to continuing resolutions.

As a result of its findings related to OHR’s processing of awards, OPM directed
OHR to conduct an evaluation of its awards program to determine the program’s
efficiency, effectiveness, and compliance with merit system principles, and OPM
recommended that OHR streamline the approval process for awards so that
awards could be issued closer to the time of the act or service being rewarded.

OHR stated in its response to OPM that it would evaluate the SEC awards
program in accordance with 5 Code of Federal Regulations (CFR) 451.106(d)
after the end of each fiscal year. 11 OHR also stated that it would seek
authorization to increase the award approval limits for Office Heads and Division
Directors from $1,499 to $2,500 to streamline the process for larger awards and
that it would continue to distribute initial award allocations during the first quarter
of each fiscal year.

Although we found that OHR had increased award approval limits for Office
Heads and Division Directors to $2,500, we also found that significant gaps
between special-act dates and award dates persist because award allocations
are being provided in the third quarter of the fiscal year. Additionally, OHR was
unable to provide documentation to show that annual award reviews were being
conducted to address the documentation issues OPM cited during its review.
OHR informed us that it does conduct a review of award data that is submitted to

11
     5 CFR 451.106(d) states the following: “Agencies shall evaluate their award program(s).”
Employee Recognition Program and 3R Incentives                                                  August 2, 2011
Report No. 492
                                                    Page 6
the Union at the end of each fiscal year and holds informal discussions among
OHR management to identify trends and potential issues related to the awards
program.

OHR provided OPM a response on July 1, 2008, to address the completion of
select recommendations in OPM’s March 2008 report, but the completed actions
were not related to the SEC awards program. OHR informed us that turnover
and reassignments of OHR staff had a negative effect on OHR’s ability to fully
address OPM’s recommendations. We believe that the absence of a designated
group in OHR with primary responsibility for the ERP has led to OHR’s inability to
fully achieve the OPM-specified outcome of creating a reward environment at the
SEC beyond compensation and benefits that contributes to attracting, retaining,
and motivating SEC employees. For example, we found that different groups
within OHR are responsible for budget formulation and awards processing. We
also found that responsibility for oversight of the ERP was handled by OHR’s
Employee and Labor Relations Branch at one time and was then transferred to
the Center for Talent Management and Employee Programs because of staff
retirements and reassignments.

Without an effective internal review process, education of SEC supervisors and
managers concerning the ERP, and adequate staff resources dedicated to
developing and overseeing the ERP, the issues found by OPM and our audit may
persist, weakening the effectiveness of the ERP and its ability to achieve
intended outcomes.

       Recommendation 1:

       The Office of Human Resources should implement an internal review
       process to review a select number or percentage of awards annually to
       ensure that appropriate documentation exists for the awards and needed
       information is readily available to support the awards.

       Management Comments. OHR concurred with this recommendation.
       See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OHR concurred with this
       recommendation.

       Recommendation 2:

       The Office of Human Resources should at least annually provide
       information to SEC supervisors on relevant parts of the SEC award
       program, including (1) types of awards available and procedures for
       nominating employees for awards, (2) appropriate types of division- and
       office-level awards for peer recognition, and (3) successful award
       practices.

Employee Recognition Program and 3R Incentives                       August 2, 2011
Report No. 492
                                        Page 7
        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 3:

        The Office of Human Resources should dedicate specific resources to
        develop and oversee the Employee Recognition Program.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.


Finding 2: OHR’s Policy for Its Award Program Is
Outdated and Not Readily Accessible
        OHR does not have updated comprehensive policies and
        procedures available to its supervisors and employees
        regarding SEC awards and recruitment, relocation, and
        retention incentives. Additionally, OHR has not provided
        supervisors and employees with formal training in this area.

ERP
OHR’s policies and procedures for its awards program are located in the POPPS
Manual, chapter 451.A, “Employee Recognition Program,” but much of this
guidance is outdated and not available electronically on the SEC intranet. This
chapter was last updated in February 1993 and contains information that is no
longer relevant. For example, it refers to guidance applicable to General
Schedule and Senior Executive Service employees rather than to SK and SO
employees. The guidance also contains information on quality step increases
and suggestions awards, which are no longer available award options. Further,
the guidance does not reflect the SEC’s current practices for determining
bonuses for SOs.

In connection with the preliminary inquiry noted earlier, we recommended that
the SEC develop more detailed guidance for nonmonetary awards. 12 The
preliminary inquiry found that the POPPS Manual did not specifically address
12
  SEC Office of Inspector General Investigative Memorandum entitled Employee Recognition Program and
Grants of Employee Awards, PI 09-07 (Mar. 10, 2010).
Employee Recognition Program and 3R Incentives                                       August 2, 2011
Report No. 492
                                              Page 8
whether informal nonmonetary awards in addition to traditional ERP
nonmonetary awards were authorized and did not address what criteria,
standards, and approvals were pertinent to such awards. The POPPS Manual
also did not make clear that appropriated funds could not be used to pay for
employee parking as an award.

Further, with OHR’s recent implementation of the new performance-based rating
system, we determined that OHR should issue guidance to supervisors on
acceptable approaches for calculating performance awards that reflect
meaningful distinctions based on the level of performance to ensure that
employees with higher ratings of record receive larger cash awards.

OHR has recently dedicated resources, including hiring a contractor, to draft new
policies and procedures for the SEC’s ERP. By memorandum dated March 29,
2011, the Associate Executive Director of OHR notified the SEC Chairman that
OHR is reviewing the ERP to identify and implement changes that will enable
managers to effectively reward employees in a timely manner and in accordance
with regulation. The Associate Executive Director of OHR further stated that the
changes will be informed by the findings and recommendations of this audit,
results from the SEC’s compensation study being conducted by Towers, Watson,
and Co., 13 and collaboration with OFM regarding funding cycles for awards.

OHR’s target date for having final policies and procedures in place is before the
end of fiscal year 2011. However, we found that in the recent past, OHR has not
met target dates for developing new policies and procedures. For example, we
found that in response to Recommendation No. 1 in our March 2010 investigative
memorandum, 14 which recommended that OHR revise its internal award policies,
including the pertinent sections of the POPPS Manual, OHR stated that it would
bring the entire policy up to date by September 10, 2010. OHR did not meet this
target date, however, and the policy has not been completed to date.

We conducted searches of the Insider to identify information available
electronically to supervisors and employees on the ERP and awards, and we
found that minimal information existed and that the information available was
difficult to locate. Our review found that the only information available as of
March 2011 was a link under OHR Employee Relations to “Special Act and Time-
Off Awards.” The link is to SEC Form 48, Award Recommendation and
Approval, which supervisors can use to nominate their employees for special act,
suggestion, time-off, or on-the-spot awards. The form also contains an
attachment consisting of a table with a brief description of the various types of
awards and refers supervisors to the POPPS Manual for more information.
13
   The purpose of the study is to assess the Commission’s current compensation design. Based on the
study's findings, the SEC will consider recommendations to ensure that the Commission’s compensation
design is fair and transparent and enables the SEC to recruit and retain the staff necessary for the SEC to
achieve its mission. Towers Watson was expected to complete its report by the end of June 2011.
14
   SEC Office of Inspector General Investigative Memorandum entitled Employee Recognition Program and
Grants of Employee Awards, PI 09-07 (Mar. 10, 2010).
Employee Recognition Program and 3R Incentives                                             August 2, 2011
Report No. 492
                                                 Page 9
However, the POPPS Manual is not available electronically on the Insider. We
also noted that although SEC Form 48 was last updated in August 2009, it is
outdated because it refers to a suggestion award that is no longer available at
the SEC, as discussed in Finding 6.

3R Incentives
SEC policies and procedures related to 3R incentives are set forth in three
POPPS Manual chapters: 575.A, “Recruitment Bonuses,” dated July 20, 1993,
chapter 575.B, “Relocation Bonuses,” dated July 20, 1993, and chapter 575.C,
“Retention Allowances,” dated August 27, 1996. These policies and procedures
are outdated, however. For example, the POPPS policies pertaining to
incentives make references to GS and SES employees rather than SK and SO
employees. In some areas, the policies do not reflect recent regulatory changes
related to 3R incentives. 15 For example, retention bonuses, as of 2007, may be
approved for employees for whom the SEC has a special need during a period
before the closure or relocation of the employee’s office, facility, activity, or
organization, if the employee would likely leave the SEC for a different position in
the federal service in the absence of a retention incentive. This authority is in
addition to the authority permitting retention bonuses for employees who are
likely to leave the SEC for a position outside the federal government. However,
OHR’s current policy does not mention this expanded authority for retention
bonuses and its application within the Commission. During the course of this
audit, OHR acknowledged the need to revise its policies and procedures and
stated that it had begun drafting changes to existing policies.

Formal Training
In addition to reviewing internal policies and procedures, we sought information
from OHR pertaining to formal training provided to supervisors and employees on
methods for rewarding employees and the various incentives that are available.
OHR said that to the best of its knowledge, there was no specific training
provided on awards and incentives during fiscal years 2008 through 2010, but
believed that these areas were touched on during performance management
training.

Unless OHR ensures that its policies and procedures related to awards and
incentives are up to date and readily available to all employees, and that
supervisors receive adequate training on those policies and procedures, the
Commission’s use of awards and incentives is unlikely to be as effective as
possible in achieving the intended goals of its awards and incentives programs.
For example, lack of up-to-date information in the POPPS manual might result in
managers’ unawareness of their ability to offer retention bonuses to some
15
  Regulations related to 3R incentives are in CFR Title 5: Administrative Personnel, Part 575—
Recruitment, Relocation, and Retention Incentives; Supervisory Differentials; and Extended Assignment
Incentives.
Employee Recognition Program and 3R Incentives                                           August 2, 2011
Report No. 492
                                               Page 10
employees. Additionally, uneven application of policies and procedures that may
occur because of the lack of up-to-date information could lead to employee
perceptions of unfairness.

         Recommendation 4:

         The Office of Human Resources should finalize its policies and
         procedures for the Employee Recognition Program within three months
         and publish them on the SEC’s Insider. The policies and procedures
         should include information on current practices for determining bonuses
         for Senior Officers, policies for determining performance-based awards for
         SK employees, and acceptable methods of providing informal
         nonmonetary awards in addition to traditional nonmonetary awards.

         Management Comments. OHR concurred with this recommendation.
         See Appendix V for management’s full comments.

         OIG Analysis. We are pleased that OHR concurred with this
         recommendation.

         Recommendation 5:

         The Office of Human Resources should review and update its existing
         policies and procedures on recruitment, relocation, and retention
         incentives. The update should ensure that the new policies and
         procedures reflect appropriate references to SK and SO employees and
         include expanded authority for retention bonuses. 16

         Management Comments. OHR concurred with this recommendation.
         See Appendix V for management’s full comments.

         OIG Analysis. We are pleased that OHR concurred with this
         recommendation.

         Recommendation 6:

         The Office of Human Resources should provide formal training on its
         revised policies and procedures and issue information notices to
         supervisors and employees as needed to reflect changes in practices and
         policies.


16
  We note that in order to implement this recommendation, OHR will need to determine whether updated
policies and procedures will include expanded authority for retention bonuses contained in CFR Title 5:
Administrative Personnel, Part 575- Recruitment, Relocation, and Retention Incentives; Supervisory
Differentials; and Extended Assignment Incentives, in light of its pay setting authority provided for in Pub. L.
No. 107-123, Investor and Capital Markets Fee Relief Act, January 16, 2002.
Employee Recognition Program and 3R Incentives                                                 August 2, 2011
Report No. 492
                                                   Page 11
        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.


Finding 3: OHR’s Budgeting Processes for
Awards and Incentives Are Ineffective
        The budgeting processes and procedures that the SEC
        currently uses for awards and incentives for SK employees
        are flawed and ineffective.

The SEC’s overall award budget for SK staff and average award per person are
nominal. 17 Additionally, SEC offices and divisions often are not notified of their
award budgets until late in the fiscal year, which has resulted in awards being
made significantly after the rewarded action occurred. Further, during the period
covered by our audit, supervisors were able to use their award budgets only for
special act awards, virtually eliminating their ability to reward employees for
outstanding performance in the course of their normal job duties and contrary to
one of the primary purposes of the ERP. We also found inconsistencies among
offices and divisions with respect to their adherence to the terms of the budget
allocation memoranda issued to divisions and offices, including instances in
which offices exceeded their award budgets or provided awards in advance of
receiving their award budgets. Further, we determined that payment of awards
at the end of the fiscal year presents various accounting issues, including payroll
errors. Lastly, we found that although Office Heads and Division Directors are
ultimately notified of their awards budget, they are not notified of funds available
for 3R incentives.

SK Awards
To examine the activities associated with the SEC’s budget for awards and
incentives, we obtained information from OHR and OFM related to budget
formulation, allocations, and expenditures for SK awards for fiscal years 2008
through 2010. We also obtained information from the Office of the Executive
Director related to work conducted by the Boston Consulting Group (BCG), which
conducted a study that, among other things, compared the SEC’s award budget
to the award budgets of other governmental and nongovernmental entities. 18


17
   This does not take into consideration the monetary value associated with time-off awards. During FY08-
FY10, the SEC made 3,601 time-off awards totaling 49,181 hours.
18
   The Boston Consulting Group, U.S. Securities and Exchange Commission Organizational Study and
Reform, March 10, 2011.
Employee Recognition Program and 3R Incentives                                            August 2, 2011
Report No. 492
                                                Page 12
The SEC’s overall award budget for SK staff and average award per person are
nominal. Based on data OHR provided, we found that the average award per
person for fiscal years 2008, 2009, and 2010 amounted to $925, $930, and $951,
respectively. 19 According to BCG’s March 10, 2011, report to Congress,
because the percentage of compensation the SEC has allocated to the merit pay
pool is just 1.5 percent 20 and merit pay has not been linked to the SEC’s
performance management system, 21 the SEC struggles to differentiate high
performers through merit compensation. BCG also acknowledged that the SEC
can reward performance through one-time monetary awards, but remarked that
the SEC award budget is minimal, representing approximately 0.5 percent of the
Commission’s overall compensation budget, or about $2 to $3 million. BCG
stated that “the median government award budget is just over six percent and
goes as high as 12 percent.” BCG concluded that the SEC would need to raise
its award budget to at least 3 percent of total compensation, or $15 to $20
million, to align the budget with public sector benchmarks. 22

We also found that SEC offices and divisions often are not notified of the amount
of their award budgets until late in the fiscal year. As noted earlier, this late
notification has resulted in lags between actions rewarded and the awards
themselves. For fiscal years 2008 through 2010, OHR and the Office of the
Executive Director (OED) determined offices’ and divisions’ budget allocations for
SK monetary awards. In general, the process consisted of gathering payroll
information regarding executive staff 23 and the SK staff count for each office and
division and the aggregate basic pay for SK employees at headquarters and the
regional offices. This information was then used to derive the aggregate SK pay
for each division and office as a percentage of the total SK pay for the
Commission. Using this percentage and the total award pool (minus the amount
set aside for SK employees who are part of the executive staff), an award
allocation was calculated for each office and division. The OED then sent
memoranda to Office Heads and Division Directors notifying them of their award
allocations and requesting that they nominate employees for awards. For fiscal
years 2008, 2009, and 2010, the allocations totaled approximately $3.3 million,
$3.3 million and $3.6 million, respectively.


19
   For 2008 and 2009, OHR calculated this amount by dividing total SK award expenditures by the
aggregate SK staff count on board during these fiscal years. For 2010, OHR calculated the amount by
dividing the total funds allocated for fiscal year 2010 awards by the aggregate SK staff count on board
during this fiscal year.
20
   Increase to base pay for all employees rated acceptable.
21
   The same percentage was provided for all employees rated acceptable with no differentiation based on
performance.
22
   BCG noted, however, that with regard to funding predictability and funding levels, despite material
increases in responsibility for the SEC under the Dodd-Frank Wall Street Reform and Consumer Protection
Act (Dodd-Frank Act), that the SEC’s resources have not grown in proportion and in contrast, other
regulators have increased resourcing to respond to the crisis or to changing regulatory environments. For
example, BCG stated that the FDIC doubled its funding to $2.3 billion in 2009. BCG also acknowledged that
other federal regulators are self-funded and have more funding flexibility.
23
   Includes SK pay level staff in the Office of Executive Staff, direct reports to the Chairman, Commissioners’
Offices and Office of Legislative and Intergovernmental Affairs.
Employee Recognition Program and 3R Incentives                                               August 2, 2011
Report No. 492
                                                  Page 13
The SEC’s award budget allocation process is not completed until after the
Commission’s annual appropriation has been approved, which may be several
months into the fiscal year. 24 Additionally, the calculation of budget allocations
and issuance of related memoranda takes several weeks to complete after the
Commission’s appropriations are approved. In fiscal years 2009 and 2010, the
OED sent out allocation memoranda to Office Heads and Division Directors on
August 11, 2009, and July 1, 2010, respectively. In both years, award
nominations had to be made by early to mid-September, with the actual awards
anticipated to be processed by the end of the fiscal year. Because the
allocations were not determined until the fourth quarter of the fiscal year, we
found instances where there appeared to be significant time lags between the
actions being rewarded and the actual award.

Moreover, we found that during the period covered by our audit, supervisors
were able to utilize their award budgets only for special act awards, virtually
eliminating their ability to provide monetary awards to employees for superior or
meritorious performance within their job responsibilities. For the fiscal year 2008
and fiscal year 2009 performance periods, all SK employees who received a
performance rating of “acceptable” received the same merit increase (adjustment
to salary), based on an agreement the Commission entered into with the Union.
If the merit increase would have caused an employee’s salary to exceed the
maximum for the grade, the employee received the excess amount as a lump
sum payment. One-time awards linked to an individual’s performance rating
(performance awards) were not permitted. Therefore, the only mechanism to
distinguish performance and reward SK employees during the period covered by
our audit was through special act or service awards and time-off or on-the-spot
awards. Consequently, while one of the purposes of the ERP is to reward
employees for performance throughout the rating period, the SEC does not
currently have in place a mechanism to do so.

We also found inconsistencies among offices’ and divisions’ adherence to the
terms of the award allocation memoranda. Some offices exceeded their total
award budgets, and others provided awards in advance of receiving their award
budgets. We found, for example, that by the time OFM received its fiscal year
2010 allocation memorandum, which specified an award allocation of $43,500,
OFM had already used $28,100, more than half of the allocated amount, for
awards. Although OFM sought and received approval from OHR before it made
the awards, other offices and divisions were not informed that seeking and
obtaining advance approval was an option available to them. We also found that
the Office of Administrative Services and the Office of Investor Education and
Advocacy had each made awards totaling approximately $7,000 in fiscal year
2010 before they received their allocation memoranda. In addition, according to
data that OHR provided, several offices exceeded their total award allocations.
For example, based on information provided by OHR, the OED exceeded its
24
  We acknowledge that there have been instances where the SEC has not received its appropriation until
several months into the fiscal year as a result of multiple continuing resolutions.
Employee Recognition Program and 3R Incentives                                          August 2, 2011
Report No. 492
                                               Page 14
fiscal year 2008 allocation of $5,014 by $10,986, approximately 319 percent and
its fiscal year 2009 allocation of $7,200 by $4,400, or approximately 161 percent,
and the Office of Public Affairs exceeded its fiscal year 2008 allocation of $6,959
by $10,001, or approximately 244 percent, and its fiscal year 2009 allocation of
$6,900 by $18,000, or approximately 361 percent.

Further, we determined that payment of awards at the end of the fiscal year
presented various accounting issues. Based on our review of information
provided by OFM, we found that the SEC’s entire awards budget is initially held
in OHR. For fiscal year 2010, OFM transferred award funds from OHR to the
various SEC offices and divisions after OED had notified them by memorandum
of the amount they had been allocated for awards. OFM made these transfers to
(1) allow offices and divisions to see their allocation in their budget reports and
(2) prevent payroll errors by having the funding already in offices’ and divisions’
budgets. During the fiscal year 2010 end-of-year closeout process, however,
OFM learned that the majority of awards would not be fully processed before the
end of the fiscal year. As a result, most of the award allocations (less any
awards already paid out) were transferred back to OHR to be obligated under a
single miscellaneous obligating document. 25 Because of the payment of awards
at the end of the fiscal year and resulting actions deemed necessary by OFM for
the-end of-year close-out process, we found that payroll errors related to a lack
of funding availability in specific budget object codes for some divisions and
offices occurred despite OFM’s effort to eliminate such errors by initially
transferring award funds to offices and divisions. As a result, extra time had to
be spent to resolve the errors and process the awards. A recent OIG report on
the SEC’s budget execution process found that budgetary controls were changed
in the SEC’s Momentum accounting system to facilitate obligation of payroll
charges (including awards) for fiscal year 2009 that were received in the first
quarter of fiscal year 2010, which could lead to an Anti-Deficiency Act violation. 26

3R Incentives
We found that while there is a specific amount set aside for recruitment bonuses,
relocation and retention money comes from a different, more general funding
source within the SEC. For fiscal year 2010, approximately $126,000 was
budgeted for recruitment bonuses.

We found that unlike awards, office and division heads are not notified of the
amount of funds available for recruitment, relocation, and retention incentives.
As a result, managers might not offer retention incentives, for example, because
they are uncertain about the availability of funds for them.


25
   Three offices’ award money remained in their budgets because, according to OFM, transferring their
allocations back to OHR would have resulted in errors.
26
   SEC Office of Inspector General Audit Report entitled Audit of the SEC Budget Execution Cycle, Report
No. 488 (Mar. 29, 2011).
Employee Recognition Program and 3R Incentives                                            August 2, 2011
Report No. 492
                                                Page 15
The relatively small size of the award budget coupled with the fact that no awards
are currently available for exceptional performance of job duties beyond the
across-the-board increase negotiated with the Union and unavailability of awards
funds information until late in the year (and no information on incentive awards)
significantly limits the effectiveness of awards and incentives on attracting,
retaining, and motivating individuals with needed talent. In addition, the payment
of awards at the end of the fiscal year results in the potential for payroll errors,
including possible Anti-Deficiency Act violations.

         Recommendation 7:

         The Office of Human Resources (OHR), in conjunction with
         the Office of Financial Management (OFM), should take the
         following actions: 27

         7a. Develop alternatives for reviewing the SEC award
            budget so that it is competitive with other federal
            agencies’ award budgets.

         7b. Develop and implement a mechanism to reward
            employees for superior or meritorious performance within
            their job responsibilities through lump-sum performance
            awards.

         7c. Determine ways to reduce the time required for
             formulation of budget allocations, including, for example,
             moving responsibility for formulating award budget
             allocations to OFM and having the Office of Information
             Technology walk-in development center develop an
             electronic program to pull payroll data directly from the
             Department of the Interior to facilitate more timely
             completion of budget allocations.

         7d. Put in place a process to make initial award allocations in
            the first quarter of each fiscal year, thereby giving offices
            the ability to make awards throughout the year. Base
            initial allocations on historical data and then refine the
            allocations, as needed, when the SEC’s annual budget
            has been approved. 28

27
   In implementing these recommendations for 2011 and 2012, the SEC should adhere to budgetary
limitations in the Office of Personnel Management’s June 10, 2011, Memorandum for Heads of Executive
Departments and Agencies, from John Berry, Director, Office of Personnel Management and Jeffrey Zients,
Deputy Director for Management & Chief Performance Officer, Office of Management and Budget, Subject:
Guidance on Awards for Fiscal Years 2011 and 2012. In addition, we understand that union negotiations
may affect the SEC’s ability to fully achieve the intended outcomes of the recommendation.
28
   We acknowledge that the SEC’s ability to put in place award budget allocations in the first quarter of the
fiscal year may be impacted by possible future continuing resolutions.
Employee Recognition Program and 3R Incentives                                               August 2, 2011
Report No. 492
                                                 Page 16
       7e. Allocate award funds directly to SEC divisions and
          offices instead of placing the initial award funds in OHR’s
          budget, and hold office and division heads responsible
          for monitoring use of the funds.

       7f. Re-examine budgeted amounts for recruitment,
           relocation, and retention incentives to ensure that
           sufficient funds are available, and make supervisors
           aware of available funding so that they can effectively
           use incentives to recruit and retain needed talent.

       Management Comments. OHR and OFM concurred with
       this recommendation. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OHR and OFM
       concurred with this recommendation. See Appendix V for
       management’s full comments.


Finding 4: OHR Did Not Maintain Adequate
Documentation to Support SK Awards Made
During Fiscal Years 2008 Through 2010
       OHR’s supporting documentation for a large number of the
       monetary awards reviewed for this audit was incomplete.
       We found that documentation was insufficient to show the
       basis for the awards and that required approvals were
       properly obtained. We also found that an award was made
       to an SEC employee who was involved in an examination
       and investigation of Bernard Madoff (Madoff) that failed to
       discover Madoff’s Ponzi scheme.

Cash Awards
During fiscal years 2008 through 2010, through memoranda issued by OED,
SEC Office Heads and Division Directors were provided allocations of award
funds and asked to make nominations for SK monetary special act or service
awards or on-the-spot awards. The memoranda specified that supervisors were
required to use SEC Form 48 to document their award nominations and provide
a narrative justification discussing the tangible or intangible benefits of the act or
service being rewarded.


Employee Recognition Program and 3R Incentives                           August 2, 2011
Report No. 492
                                        Page 17
Awards also required management approval. For fiscal year 2008,
Commissioners, Division Directors, Office Heads, and Regional Directors were
permitted to approve awards up to $1,500. Awards from $1,500 to $10,000
needed approval from the Executive Director, and awards above $10,000
required approval from the Chairman. For fiscal years 2009 and 2010, awards
up to $2,500 could be approved by Commissioners, Division Directors, Office
Heads, and Regional Directors; awards from $2,500 to $10,000 needed approval
from the Executive Director; and awards above $10,000 required approval from
the Chairman.

To determine whether OHR was maintaining appropriate documentation for the
awards it made, we judgmentally selected a sample of 29 of 8,759 available SK
monetary awards made from fiscal year 2008 through fiscal year 2010. Twenty-
five of these awards were individual cash awards and four were group cash
awards. On January 24, 2011, we asked OHR to provide us with the
documentation supporting the awards. Specifically, we asked that for each
award, OHR provide us with an SEC Form 48 showing the type of award,
appropriate approvals, and a narrative justification to describe the employee’s
achievements to warrant the award, and an SF 50, Notification of Personnel
Action, to show the processing of the award. In general, OHR was unable to
provide complete and timely information to support these awards. As of March
31, 2011, OHR had provided only SF 50s for the majority of the awards in our
sample. We determined that a primary reason for OHR’s inability to timely
provide the requested information was that OHR does not have a centralized
filing system for these types of documents. During our audit, we found that many
OHR specialists maintained their own personal files to document the awards they
process.

OHR provided complete documentation (SF 50, SEC Form 48, and any related
justification or approvals) for only eight of the 29 awards for which we requested
documentation. For 20 of the awards, OHR provided only an SF 50 showing that
the award was processed. OHR provided no documentation for one of the
awards.

Because no SEC Form 48 was provided for 20 of the awards in our sample, all
20 of those awards lacked documented justifications and documented approvals.
Two of the 20 awards were large enough—$6,000 and $7,000—that they would
have required approval from the Executive Director, and two were large
enough—both were for $15,000—that they would have required approval from
the Chairman. We also found with respect to one cash award for which an SEC
Form 48 had been provided, the signature block that should have contained the
dated signature of the Regional Director (the approving official) had been left
blank.

We also found errors in the documentation that was provided. For eight awards,
the documentation indicated that the award was rating-based. The SF 50s for

Employee Recognition Program and 3R Incentives                       August 2, 2011
Report No. 492
                                        Page 18
four of these awards were assigned nature of action code 840 (Individual Cash
Award Rating Based). Under the SEC’s agreement with the Union, however, for
the fiscal year 2009 performance cycle, employees were permitted to receive
only an equivalent performance merit increase, and performance-based awards
were not permitted. Hence, all SF 50s for cash awards should have had a nature
of action code 849 (Individual Cash Award Non Rating Based). Further, OHR
could not provide justifications showing the recommending offices’ basis for
issuing the four awards. Based on discussions with OHR, we believe it is likely
that the rating-based nature of action code on the four awards resulted from a
data entry error. However, the SF 50 for one of the four awards showed an
award amount of $1,472, and the narrative justification stated “per agreement
dated 10/3/08.” Both the specific amount of the award and the justification
language suggest that the award may have been part of a settlement agreement
with the employee rather than a special act award. OHR should research these
four awards to determine whether they were in fact erroneously coded—that is,
they were not performance-based—to ensure that none were made in violation of
the SEC’s agreement with the Union.

The other four awards with documentation indicating that they were rating-based
were coded as non-rating-based cash awards (special act awards) on the SF
50s, but the related justifications indicated that the awards related to the
employees’ normal duties. For example, one special act award stated that the
examinations led by the employee continued to have an extraordinarily high
percentage of significant findings ultimately resulting in successful referrals of
apparent fraudulent activity to the Division of Enforcement or the Financial
Industry Regulatory Authority. In another case, the award justification stated that
the employee was a participant in several examinations and investigations that
contributed to the Commission’s goals and mission and had implications inside
and outside the agency. Although these justifications contained additional details
regarding the specific examinations and investigations conducted and their
outcomes, the justifications did not clearly show why the employees’
contributions went beyond their normal duties and performance standards.
Section 4-1 of the POPPS Manual, “Special Act or Service Awards,” states that
special act or service awards should be used “to recognize non-recurring
contributions which are beyond the normal duties of employees” (emphasis
added).

We also found six instances where multiple awards were made to the same
employee within days of each other. In some cases, the total amount of the
multiple awards to a single employee exceeded the $2,500 approval threshold for
Office Heads and Division Directors. For example, one employee received an
award on September 12, 2010, for $1,900 and another on September 13, 2010,
for $785. Another employee received an award on September 12, 2010, for
$2,100 and another on September 13, 2010, for $2,400. Because the award
documents were submitted separately, however, higher-level approvals were not
obtained. In the first example, OHR was unable to provide documentation that

Employee Recognition Program and 3R Incentives                        August 2, 2011
Report No. 492
                                        Page 19
would enable us to determine whether the awards related to separate acts or
services. In the second example, the awards related to the same performance
period, but the justifications cited different work performed to warrant each
award.

Based on available documentation, we understand that the primary reason why
multiple awards were made to individuals within days of each other in fiscal years
2009 and 2010 is that Office Heads and Division Directors did not receive
notification of award allocations from OHR until late in the fiscal year. Therefore,
offices provided multiple awards at the end of the fiscal year to cover special acts
that occurred throughout the fiscal year. We also believe that some of the award
justifications were performance-based because special act awards were the
primary tool for recognizing staff who produced high-quality work until the
agency’s new performance system was fully implemented. As previously noted,
during fiscal years 2008 and 2009, all employees who received a performance
rating of “acceptable” received an equivalent percentage merit pay increase.

Further, we found two awards for which the only documentary support provided
were SF 50s showing award amounts of $6. While these amounts appear to be
erroneous, OHR was unable to provide any further documentation to support the
awards.

Time-Off Awards
We judgmentally selected 10 out of 3,601 time-off awards made from fiscal year
2008 through fiscal year 2010 for review to determine if there was sufficient
documentation to support the awards. The awards selected ranged from 8 to 40
time-off hours. Time-off awards allow supervisors to grant employees time off
from duty as a means of encouraging and rewarding superior accomplishments
or other personal efforts. According to the POPPS Manual, Chapter 451.A,
Employee Recognition Program, Section 5. Time Off Awards, a time-off award is
appropriate in situations in which an employee makes a unique contribution
involving a difficult or important assignment; displays special skills or initiative in
completing an assignment or project before the deadline or in the face of unusual
obstacles or pressures; uses notable initiative or creativity in making
improvements in a product, activity, program, or service; or ensures that the
mission of the organizational unit is accomplished during a difficult period by
successfully completing additional work or a project assignment while
maintaining his or her own regular workload. A maximum of 40 hours may be
granted to a full-time employee for a single contribution. Supervisors nominate
employees for time-off awards by completing an SEC Form 48 that includes a
justification describing the employee’s achievement and resulting benefit to the
SEC. Time-off awards up to a maximum of three workdays can be approved by
Office Heads and Division Directors. The Executive Director is authorized to
approve time-off awards in excess of three workdays, up to the maximum 40
hours for a single contribution.
Employee Recognition Program and 3R Incentives                           August 2, 2011
Report No. 492
                                        Page 20
We found that OHR lacked sufficient documentation to support the majority of
time-off awards in our sample. OHR did not provide any documentation to
support two of the 10 time-off awards and could only provide SF 50s to support
six of the time-off awards. In addition, there was no documentation to show why
the Executive Director had approved two time-off awards that exceeded the
three-day limit, as required by the POPPS manual.

Cash Award to Employee Based in Part on 2009 Madoff
Investigation
In August 2009, we completed our investigation of the SEC’s failure to uncover
Bernard Madoff’s $50 billion Ponzi scheme. 29 We found that the examinations
and investigations of Madoff and/or his firm were generally conducted by
inexperienced personnel, were not planned adequately, and were too limited in
scope. We further found that the SEC examiners and investigators failed to
understand the complexities of Madoff’s trading and the importance of verifying
his returns with independent third parties. As a result, we recommended in our
investigative report that the Chairman share with management the portions of the
investigation that related to performance failures by employees who still worked
at the SEC and that appropriate action, including performance-based action, be
taken on an employee-by-employee basis.

We found during our review that one of the key participants in both the 2005
examination and 2006 investigation of Madoff received a $1,200 cash award in
April 2010. The narrative justification for the award indicated that it was made, in
part, to reward the employee’s efforts in 2009 pertaining to a follow-on
investigation of Madoff. The award nomination was signed by the employee’s
Branch Chief and Assistant Regional Director on September 14, 2009, just two
weeks after the August 31, 2009, issuance of the OIG’s final investigative report
on the Commission’s failure to uncover the Madoff Ponzi scheme. Moreover,
both the employee being rewarded and the Assistant Regional Director who
recommended the award were cited in the report for numerous performance
issues and were subject to potential disciplinary action at the time the award
recommendation was made.

We did find that SEC postponed payment of the award to the employee until April
25, 2010, after the SEC’s receipt of a report from Fortney & Scott, LLC, 30 which
concluded that the employee’s actions did not warrant formal disciplinary action.
However, the Fortney & Scott report did not dispute the serious performance
issues pertaining to the employee raised in our report, including the fact that the

29
   SEC Office of Inspector General Report entitled Investigation of Failure of the SEC to Uncover Bernard
Madoff’s Ponzi Scheme, Report No. OIG-509 (Aug. 31, 2009).
30
   Fortney & Scott, LLC, is a law firm that the SEC hired to serve as an expert to review performance issues
identified in the OIG’s Madoff report and to advise the Commission concerning any personnel or disciplinary
responses that might be warranted based on that report.
Employee Recognition Program and 3R Incentives                                             August 2, 2011
Report No. 492
                                                 Page 21
2005 examination of Madoff in which the employee had played a critical role was
inappropriately focused, conducted without obtaining critical independent data,
closed with unresolved issues remaining, and relied too heavily on the
representations of Madoff. Further, the Fortney & Scott report recommended
formal disciplinary action, including removal from service, for the Assistant
Regional Director who approved the award nomination in question.

The lack of adequate documentation to support cash and time-off awards and
approval by division and office heads of awards to employees potentially subject
to disciplinary action, jeopardizes the integrity of the awards program.

   Recommendation 8:

   The Office of Human Resources should develop and train human resources
   specialists on a centralized filing system (manual, electronic, or both) for all
   awards that contains appropriate documentation to support the awards,
   including SF 50 and SEC Form 48 with narrative justification and appropriate
   approvals.

   Management Comments. OHR concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OHR concurred with this
   recommendation.

   Recommendation 9:

   The Office of Human Resources should implement management controls to
   ensure that employees who are subject to disciplinary action are restricted
   from receiving awards related to the performance that resulted in the
   disciplinary action.

   Management Comments. OHR concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OHR concurred with this
   recommendation.


Finding 5: A Cash Award Was Inappropriately
Made to a Schedule C Political Appointee
       The SEC made a cash award to an SEC Schedule C
       employee in fiscal year 2010 in violation of OPM guidance


Employee Recognition Program and 3R Incentives                         August 2, 2011
Report No. 492
                                        Page 22
        restricting awards, bonuses, and similar payments for
        political appointees.

In August 2010, OPM issued guidance restricting awards, bonuses, and similar
payments for political appointees beginning on August 3, 2010, and continuing
through the end of fiscal year 2011. 31 The guidance specifically prohibits
performance and special act awards. For purposes of the guidance, all Schedule
C employees are political appointees.

To determine whether any Schedule C employees received monetary awards
during the aforementioned restricted period, we obtained a current list of
Schedule C employees from OHR and compared the list with award data
maintained by OHR. We found that one Schedule C employee received a
$2,000 cash award effective August 12, 2010. While we sought further
information from OHR regarding this award during fieldwork, such as the SF 50
and SEC Form 48 and related justification, OHR initially did not provide the
requested information. However, OHR recently informed the OIG that it has
determined the award to be improper and is taking appropriate action to recover
the funds.

        Recommendation 10:

        The Office of Human Resources should review the August 12, 2010, cash
        award to a Schedule C employee to determine whether it was in violation
        of the Office of Personnel Management guidance and, if so, seek recovery
        of the improper award.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.


Finding 6: OHR’s Employee Suggestion Program
Did Not Provide Cash Awards During Fiscal Years
2008 Through 2010 and Was Not Effectively
Managed
        Although OHR had an Employee Suggestion Program in
        place from 2008 to 2011 that included a monetary incentive

31
  Memorandum from John Berry, Director, Office of Personnel Management, Guidance on Freeze on
Discretionary Awards, Bonuses, and Similar Payments for Federal Employees Serving Under Political
Appointments, CPM 2010-14 (Aug. 3, 2010).
Employee Recognition Program and 3R Incentives                                         August 2, 2011
Report No. 492
                                              Page 23
        component, OHR did not make any cash awards under the
        program. Additionally, the program was given little priority
        and was not effectively managed.

In March 2008, OHR issued a formal directive for its Employee Suggestion
Program. 32 According to the OHR directive, the program was designed to
motivate employees to submit constructive ideas that contribute to the economy,
efficiency, or effectiveness of government operations. A suggestion was defined
as “an idea designed to accomplish a job better, faster, and or/cheaper and
which results in tangible or intangible benefits to the federal government.” The
suggestion “may save material or property, promote health, increase safety, and
improve morale or administrative routine.” Recognition in the form of a cash
award was to be given to eligible employees whose suggestions were adopted.
Awards for suggestions that would result in tangible savings or benefits were to
be based on an estimate of the first-year dollar savings or benefits. The
Executive Director or the Associate Executive Director for OHR had authority to
approve awards up to $10,000.

To submit a suggestion, employees were to complete a suggestion form or
submit an e-mail or document to OHR with pertinent information about the
suggestion. OHR, according to its policy, would acknowledge receipt of the
suggestion within five days by e-mail and forward the suggestion for
consideration to the office or division that could benefit from the suggestion or
would be responsible for implementing it. OHR would then notify the employee
who submitted the suggestion regarding the decision made by the office or
division that considered it. A sole employee in OHR, who was designated as the
“Suggestion Officer” but had multiple other duties, was primarily responsible for
carrying out these activities. According to OHR, the employee who filled this role
retired from the SEC in 2009, and the role and job duties were not reassigned.

We gathered available information on the Employee Suggestion Program from
OHR and met with OHR officials who had knowledge of the program to ascertain
whether any cash awards had been provided to employees through the program.
Although SEC employees submitted approximately 150 suggestions from fiscal
year 2008 through March 2010, OHR did not initiate any payment or monetary
awards to employees whose suggestions were implemented under the program.
However, OHR provided e-mail documentation to show one case in which the
office of the employee who made a suggestion provided the employee a $1,000
cash award and a time-off award. Additionally, we found in our examination of
an internal spreadsheet that OHR provided to us, which showed the status and
tracking of suggestions, that another employee had received a time-off award for
submitting a suggestion to the Employee Suggestion Program, although the
source of the award was unclear.

32
  U.S. Securities and Exchange Commission Human Capital Directive, Employee Suggestion Program,
dated March 6, 2008, addressed to All Employees from Jeffrey Risinger, Associate Executive Director,
Office of Human Resources.
Employee Recognition Program and 3R Incentives                                          August 2, 2011
Report No. 492
                                               Page 24
In our discussions with OHR, we learned that the Employee Suggestion Program
was given little attention and that at one time a significant backlog of suggestions
(approximately 50) was assigned to various employee and labor relations
specialists in the Office of Employee and Labor Relations to be reviewed and
closed out. Further, we found that the OHR internal spreadsheet for the program
contained limited current information on what close-out actions had been taken
by OHR or the office or division to which the suggestion was referred. For
example, the spreadsheet only contained information regarding pertinent dates,
the suggestion topic, the individual who submitted the suggestion, and the office
or division to which the suggestion was referred, and the status column of the
spreadsheet in many cases was simply marked “closed.”

Further, we learned that after an OHR employee who had worked on the
program departed in late 2010, the program had become essentially
nonoperational. We also found that current OHR management was not aware
that a mailbox advertised on the SEC Insider for employees to use to submit
suggestions was still operational as of April 2011. After we made further
inquiries, OHR accessed the electronic suggestions mailbox and found that it
contained approximately 33 e-mails that had never been reviewed. A few of the
e-mails actually pertained to fixing the Employee Suggestion Program because
employees did not get responses from OHR on their submitted suggestions.

Following recent meetings with OHR and as requested by the OIG, OHR has
published a notice on the SEC Insider directing staff to the OIG’s suggestion
program that was established in accordance with the Dodd-Frank Wall Street
Reform and Consumer Protection Act (Dodd-Frank Act). 33 The notice states that
to avoid any duplication of efforts, OHR has discontinued its previous SEC
Employee Suggestion Program and that employees should submit their
suggestions for improvements in SEC programs and operations directly to the
OIG. The OIG also arranged for OHR to forward the unread e-mails from its
suggestions mailbox to the OIG for appropriate review and follow-up.

The Dodd-Frank Act does not give the OIG authority to provide employees cash
awards for adopted suggestions, although it does provide for non-monetary
recognition to employees who make suggestions. 34 Without the availability of
awards for adopted suggestions, SEC employees may have less incentive to
submit suggestions that could improve the Commission’s efficiency and
effectiveness.

33
   The OIG established the Employee Suggestion Program in September 2010 in accordance with Section
966 of the Dodd-Frank Wall Street Reform and Consumer Protection Act, Pub. L. No. 111-203 (July 21,
2010). Through this Program, the OIG receives suggestions from employees for improvements in work
efficiency, effectiveness, and productivity, as well as allegations by employees of waste, abuse, misconduct,
or mismanagement within the Commission.
34
   Section 966 of the Dodd-Frank Act authorizes the OIG to provide nonmonetary recognition to employees
who make suggestions that would or do increase the work efficiency, effectiveness, or productivity of the
Commission, or reduce waste, abuse, misconduct, or mismanagement within the Commission.
Employee Recognition Program and 3R Incentives                                              August 2, 2011
Report No. 492
                                                 Page 25
       Recommendation 11:

       The Office of Human Resources should consider ways that, as part of the
       Employee Recognition Program, it may be able to provide awards to
       employees for adopted suggestions submitted to the OIG’s suggestion
       program.

       Management Comments. OHR concurred with this recommendation.
       See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OHR concurred with this
       recommendation.


Finding 7: OHR Does Not Maintain Adequate
Documentation for 3R Incentive Awards, and
Related Service Agreements Do Not Meet OPM
Requirements
       OHR was unable to provide complete documentation to
       support 3R incentive awards that were selected for review.
       In addition, the language in service agreements for
       recruitment and relocation awards does not meet OPM
       requirements.

Recruitment

To examine whether the SEC maintains sufficient documentation to support
recruitment bonuses awarded, we selected a judgmental sample of six
recruitment bonuses from a population of 41 recruitment bonuses paid from fiscal
year 2008 through fiscal year 2010 and reviewed supporting documentation that
OHR maintains for the bonuses. The dollar values of the sampled recruitment
bonuses ranged from $4,000 to $56,825.

All six recruitment bonuses in our sample had deficiencies with respect to service
agreements. In four cases, OHR was unable to provide documentation showing
that a service agreement had been completed, as required by the POPPS
Manual, Chapter 575.A, Recruitment Bonuses. Of the two for which OHR was
able to provide service agreements, one lacked the required signature of an
agency representative and the other had been only partly completed--OHR had
not completed the lower portion, which shows the date the employee entered
duty and the service completion date.

Employee Recognition Program and 3R Incentives                       August 2, 2011
Report No. 492
                                        Page 26
We also found that the service agreement format utilized by the SEC does not
fully comply with 5 CFR § 575.110(d), which states that service agreements
“must include the conditions under which the agency must terminate the service
agreement (i.e., if an employee is demoted or separated for cause, receives a
rating of record of less than ‘Fully Successful’ or equivalent, or otherwise fails to
fulfill the terms of the service agreement) and the conditions under which the
employee must repay a recruitment incentive under §575.111.” According to 5
CFR § 575.110(e), the service agreement must also include “the conditions
under which the agency may terminate the service agreement before the
employee completes the agreed-upon service period.” Our review of the service
agreement format currently used by the SEC—SEC Form 2299, Securities and
Exchange Commission Recruitment Bonus Service Agreement (revised in May
2003)—found that it does not fully address these requirements. The agreement
states only that the employee agrees to remain in the SEC’s employment for a
period of 12 months, beginning on the date of the employee’s appointment,
unless separated for reasons beyond the employee’s control and which are
acceptable to the SEC. The agreement also states that the employee agrees to
repay the recruitment bonus to the Commission on a pro-rata basis if he or she
does not remain with the SEC for the specified period.

We further found that a recruitment incentive was paid before the Chairman
formally approved it. An SF 50 showed that a recruitment bonus of 25 percent of
basic annual pay in the amount of $56,825 was effective August 3, 2009, but our
examination of the associated SEC Form 2298, Securities and Exchange
Commission Recommendation and Approval of Recruitment Bonus, found that
the bonus had not been approved by the Chairman until 10 days later. Although
OFM had provided initial approval on July 28, 2009, and the Executive Director
had provided initial approval on July 30, 2009, the Chairman did not approve the
bonus until August 13, 2009. According to the POPPS Manual, the SEC is
precluded from even making an oral offer to pay a recruitment bonus until after
formal approval is obtained. 35 In addition, OHR was unable to provide us with a
completed Form 2298 showing the required approvals for a 25 percent
recruitment bonus of $23,070, although available e-mails indicated that OHR had
sought approval from the Chairman.

OHR also did not provide us with written justifications for two of the six
recruitment bonuses that were a part of our sample. The POPPS Manual
requires that written justifications be based on one or more of the following
factors, noting that OPM requires consideration of the first five:

               (1) Special qualifications needed for the position and displayed
                   by the candidate;
               (2) If the position is unique, the success of recent efforts to
                   recruit candidates for similar positions;

35
     POPPS Manual, ch. 575.A, “Recruitment Bonuses,” para. 6, Procedures.
Employee Recognition Program and 3R Incentives                              August 2, 2011
Report No. 492
                                                Page 27
               (3) Recent turnover in similar positions;
               (4) Labor market factors that may affect SEC’s ability to recruit
                   high quality internal or external candidates for similar
                   positions now or in the future;
               (5) Practicality of using the superior qualifications appointment
                   alone or in combination with a recruitment bonus;
               (6) Impacts on morale;
               (7) Relative attractiveness of the duty station including cost of
                   living, remoteness, and community amenities;
               (8) Urgency to fill the position;
               (9) Agency affirmative employment goals; and
              (10) Other special or unique needs for the individual’s service. 36

Further, SEC policy requires that each recruitment bonus paid be based on the
written justification as well as a written determination that, in the absence of such
a bonus, the SEC would encounter difficulty in filling the position with a high-
quality candidate.

We found that one of the sampled justifications did not appear to fully address all
the required factors in SEC policy. While the written justification provided
information about the individual’s accomplishments (where the individual had
worked, what the individual had accomplished) and stated that the individual was
currently making substantially more than the SEC could offer, it did not attempt to
address such factors such as the specific qualifications needed for the position,
labor market factors, etc. The justification also did not state that the SEC had
determined that in the absence of such a bonus, it would encounter difficulty in
filling the position with a high-quality candidate.

Relocation
To examine whether the SEC maintained sufficient documentation to support
relocation bonuses awarded, we reviewed documentation maintained by OHR to
support all three relocation bonuses paid during fiscal years 2008 through 2010.
The relocation bonuses were for $10,000, $44,625, and $15,000.

According to the POPPS Manual, the office recommending the relocation bonus
must complete SEC Form 2320, Recommendation and Approval of Relocation
Bonus, and provide a written justification for the bonus that addresses the
following:

       (1) Special qualifications needed for the position and displayed by the
           candidate;
       (2) If the position is not unique, the success of recent efforts to recruit
           high quality candidates for similar positions, including narrative

36
     POPPS Manual, ch. 575.A, “Recruitment Bonuses,” para. 2, Policy.
Employee Recognition Program and 3R Incentives                               August 2, 2011
Report No. 492
                                                 Page 28
           examples and/or indicators such as offer acceptance rates, the
           proportion of positions filled, and the length of time required to fill
           similar positions;
       (3) Recent turnover in similar positions;
       (4) Labor market factors that may affect the SEC’s ability to recruit high
           quality internal or external candidates for similar positions now or in
           the future;
       (5) Positive and negative impacts on the morale of current employees;
       (6) Relative attractiveness of the duty station including cost of living,
           remoteness, and community amenities;
       (7) Urgency to fill the position;
       (8) Agency affirmative employment goals; and
       (9) Other special or unique needs for the individual’s service. 37

SEC policy also requires that relocation bonuses up to 10 percent of annual
basic pay be approved by the Executive Director and that bonuses of 10 percent
up to the legal maximum of 25 percent of basic pay be approved by the
Chairman. Additionally, before a relocation bonus may be paid, the employee
must sign a written service agreement to complete 12 months of employment at
the Commission in the new location.

We found that OHR did not provide SEC Form 2320 for two of the three
relocation bonuses we reviewed, although e-mails for the $15,000 relocation
bonuses show that approval for the bonus had been obtained from the Executive
Director. Further, we found that the documentation provided by OHR for one of
the relocation bonuses did not contain a written justification as required by SEC
policy or SEC Form 2320 showing that the Chairman had approved the bonus,
although e-mails provided by OHR indicated that the appropriate paperwork had
been signed by the Chairman. The relocation bonus was for $44,625,
approximately 25 percent of the employee’s basic pay.

OHR did not provide us with documentation to show that a service agreement
had been completed for the $10,000 relocation bonus. OHR provided service
agreements for the $44,625 and $15,000 relocation bonuses, but the form for the
$15,000 bonus was not signed by an agency representative and OHR had not
filled in the lower half of the form with the appointment date and service
agreement completion date.

Retention
To examine whether the SEC maintains sufficient documentation to support
retention bonuses awarded, we selected a judgmental sample of seven retention
bonuses from a population of 31 retention bonuses paid during fiscal years 2008
through 2010 and reviewed the associated supporting documentation that OHR

37
     POPPS Manual, ch. 575.B, “Relocation Bonuses.”
Employee Recognition Program and 3R Incentives                             August 2, 2011
Report No. 492
                                               Page 29
maintains. The retention bonuses in our sample ranged from 2 to 24 percent of
the employee’s basic annual salary.

According to the POPPS Manual, the office or division recommending the
retention bonus must complete SEC Form 2321, Request and Justification for
Action in New or Continuing Retention Allowance, and provide a written
justification for the bonus that addresses the following:

           (1) The adverse impact that the employee’s departure would have
               on the SEC’s ability to carry out an activity or perform a function
               that is essential to its mission;
           (2) The degree of success of recent efforts to recruit candidates
               and retain employees with qualifications similar to those
               possessed by the employee for positions similar to the position
               held by the employee;
           (3) The availability of candidates for employment who, with minimal
               training or disruption of service, could perform the full range of
               duties and responsibilities assigned;
           (4) Other factors that may affect the SEC’s ability to replace
               employees who possess specialized or critical knowledge, skills,
               and abilities now or in the near future;
           (5) Positive and negative impacts on the morale of current
               employees; and
           (6) Other special or unique needs for the individual’s service. 38

SEC policy requires that retention bonuses up to 10 percent of basic annual
salary be approved by the Executive Director and that bonuses from 10 percent
up to the maximum 25 percent of basic annual salary be approved by the
Chairman. Further, SEC policy requires that OHR ensure that allowances are
reviewed annually and are either recertified (with or without modification of the
amount) or terminated. SEC Form 2321 is intended to serve as documentation
to support both newly-approved allowances and recertifications.

For two of the six retention bonuses in our sample, OHR did not provide us with
the required SEC Form 2321 with approvals, written justification, SF 50, and
annual recertifications. For four of the six retention bonuses, OHR provided only
an SF 50 to show that the retention bonus had been processed. For three of the
six retention bonuses, OHR did not provide us with documentation to show that
annual retention bonus recertifications had been completed as required by SEC
policy, even though in each case the retention allowance had been in place at
least one year.

We also found that approvals by the Chairman for retention bonuses were not
always documented and that required approval signatures for bonuses were not

38
     POPPS Manual, ch. 575.C, “Retention Allowances.”
Employee Recognition Program and 3R Incentives                             August 2, 2011
Report No. 492
                                                Page 30
always obtained in a timely manner. Two of the retention bonuses in our sample
were for more than 10 percent of the employee’s basic annual salary and
therefore required the Chairman’s approval. One of these retention bonuses was
for 13.13 percent, and the only documentation for the bonus that OHR provided
to us was an SF 50 that had been signed by the Associate Executive Director for
OHR. The other retention bonus was for 24.01 percent. For that bonus, SEC
Form 2321 was completed approximately 15 days after the effective date of the
retention incentive. The retention incentive was processed on March 14, 2010,
according to the SF 50 for the action, but the paperwork and required approvals
from the Executive Director, OHR, and the Chairman were not obtained until
March 15, 2010, March 29, 2010, and March 17, 2010, respectively. OHR noted
on the Form 2321 that it had obtained oral approval (although it is not clear from
whom) to make the retention incentive effective before the required signatures
had been obtained.

We believe that OHR’s lack of a centralized filing system contributed to its
inability to produce complete documentation for the 3R bonuses in our sample.
As a result, OHR was unable to show that the incentives paid by the SEC were
justified and approved, as required by OPM and SEC policy, which increases the
risk that 3R bonuses may be inappropriately awarded.

        Recommendation 12:

        The Office of Human Resources should revise the service agreement
        format in SEC Form 2299, Securities and Exchange Commission
        Recruitment Bonus Service Agreement, to incorporate specific reasons
        that the SEC “may” and “must” terminate service agreements for
        recruitment and relocation bonuses. 39

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 13:

        The Office of Human Resources should develop and train applicable
        human resources specialists on the use of a centralized filing system for
        all relocation, recruitment, and retention incentives. The centralized filing
        system should contain all appropriate documentation to support the

39
  We note that in implementing this recommendation, OHR will need to determine whether updated policies
and procedures will include required provisions for service agreements in CFR Title 5: Administrative
Personnel, Part 575- Recruitment, Relocation, and Retention Incentives; Supervisory Differentials; and
Extended Assignment Incentives, in light of its pay setting authority provided for in Pub. L. No.107-123,
Investor and Capital Markets Fee Relief Act, January 16, 2002.
Employee Recognition Program and 3R Incentives                                           August 2, 2011
Report No. 492
                                               Page 31
           incentives, including the SF 50 and the applicable SEC form with the
           narrative justification for the bonus and the appropriate approvals.

           Management Comments. OHR concurred with this recommendation.
           See Appendix V for management’s full comments.

           OIG Analysis. We are pleased that OHR concurred with this
           recommendation.


Finding 8: The SEC’s ERP and 3R Incentives Are
Not Linked to an SEC Human Capital Plan
           The SEC does not have a human capital plan. Accordingly,
           activities associated with the ERP and 3R incentives are not
           being assessed to determine whether they effectively align
           with the SEC’s overall human capital goals and objectives.

According to OPM regulation, agency heads or their designees must maintain a
current human capital plan and provide OPM an annual Human Capital
Management Report, based on an approved human capital accountability
system. Using a format established by agreement between the agency and
OPM, the human capital plan must cover the following:

      •    Human capital goals and objectives. These are to consist of a
           comprehensive, integrated set of goals and initiatives with detailed policy
           and program priorities and initiatives, as appropriate.

      •    Workforce analysis. This analysis is to include a description of the current
           state of the agency’s workforce, a projection of human resources needed
           to achieve the agency’s performance goals and objectives during the term
           of its strategic plan, and identification of potential shortfalls and gaps.

      •    Performance measures and milestones. These are to include, for each
           human capital goal or objective, one or more “human capital metrics” to
           provide a basis for assessing progress and results. 40

During discussions with OHR, we found that the SEC has not yet put in place the
required formal human capital plan. OHR does, however, produce a Human
Capital Management Report that it provides to OPM each year. We found that
the 2010 report contained information on the SEC’s achievement of Commission-
specific initiatives such as supplemental health benefits and requirements related
to financial reform. The report also discussed achievements with respect to

40
     5 CFR § 250.203.
Employee Recognition Program and 3R Incentives                            August 2, 2011
Report No. 492
                                         Page 32
government-wide initiatives such as telework, hiring reform, health and wellness,
and domestic partner benefits. In addition, it discussed accomplishments related
to OPM’s Leadership and Knowledge Management System and Results-Oriented
Performance Culture System. The report also noted that OHR has established a
group within OHR to develop a human capital accountability plan and institute
internal reviews to assess compliance and effectiveness of human capital
management performance and monitor the progress of various human capital
initiatives. The Human Capital Management Report, however, is not a substitute
for a formal human capital plan. In fact, the Human Capital Management Report
should report progress against meeting the performance measures and
milestones contained in the human capital plan.

According to OHR, it has not put in place a formal human capital plan due to a
lack of resources; however, OHR has recently put in place a contract to obtain
the needed resources to develop the plan. Because it lacks the required human
capital plan, the Commission cannot assess whether the ERP and 3R incentives
effectively align with its overall human capital goals and objectives

       Recommendation 14:

       The Office of Human Resources should identify resources and establish a
       timeline to complete the required human capital plan. It should also
       ensure that ERP activities are evaluated at least annually to ensure that
       they align with human capital plan objectives and strategies.

       Management Comments. OHR concurred with this recommendation.
       See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OHR concurred with this
       recommendation.




Employee Recognition Program and 3R Incentives                      August 2, 2011
Report No. 492
                                        Page 33
                                                                     Appendix I


                      Abbreviations/Acronyms

3R                           Recruitment, Relocation, and Retention
BCG                          Boston Consulting Group
CFR                          Code of Federal Regulations
Dodd-Frank Act               Dodd-Frank Wall Street Reform and
                             Consumer Protection Act
ERP                          Employee Recognition Program
OED                          Office of Executive Director
OFM                          Office of Financial Management
OHR                          Office of Human Resources
OIG                          Office of Inspector General
OPM                          Office of Personnel Management
POPPS                        Personnel Operating Policies and Procedures
SEC or Commission            U.S. Securities and Exchange Commission
SO                           Senior Officer
Union                        National Treasury Employees Union




Employee Recognition Program and 3R Incentives                      August 2, 2011
Report No. 492
                                        Page 34
                                                                     Appendix II


                      Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. We examined activities associated with the SEC’s ERP and 3R
incentives during fiscal years 2008 through 2010. Our examination included
assessing whether comprehensive documentation was available to supervisors
and employees regarding awards and incentives, whether sufficient
documentation existed to support cash awards and incentives paid, and whether
recommendations made by OPM in its 2007 review of OHR’s operations related
to SEC award activities had been adequately addressed. We conducted our
fieldwork from January 2011 through May 2011.

Methodology. To accomplish our audit objectives we gained familiarity with
applicable OPM and Commission policies and procedures related to awards and
incentives. We gathered documentation regarding OPM’s 2007 review of OHR’s
operations to examine recommendations made with respect to the SEC’s award
practices and actions taken to address those recommendations. Additionally, we
selected judgmental samples of awards and incentives and reviewed supporting
documentation to determine whether the awards were processed in accordance
with applicable policies and procedures. We also gained an understanding of the
SEC‘s process for budgeting for awards and incentives to identify areas for
improvement. Further, we examined OHR’s Employee Suggestion Program and
related award activities. We also examined whether OHR had linked its ERP and
incentive activities to a human capital plan. We conducted interviews and
obtained related documentation from personnel in OHR and OFM. Additionally,
we contacted another federal financial regulatory agency to obtain a copy of its
policies and procedures related to awards and incentives and identify best
practices. Lastly, we obtained information from OED related to work conducted
by BCG, which conducted a study that, among other things, compared the SEC’s
award budget to the award budgets of other governmental and nongovernmental
entities.

Management Controls. We reviewed management controls as they pertained
to the audit objectives, such as gaining an understanding of OHR’s policies and
procedures for awards and incentives and its controls over processing awards
and incentives.



SEC Employee Recognition Program and 3R Incentives                  August 2, 2011
Report No. 492
                                       Page 35
                                                                                                Appendix II


Use of Computer-Processed Data. We used computer-processed data
provided by OHR that was obtained from the Department of the Interior’s
National Business Center (payroll system). We also used Excel spreadsheets
provided by OHR pertaining to award budget allocations, as well as related data
provided by OFM from the SEC’s Momentum accounting system. We
determined that the data retrieved from the systems and the requested
information appeared to be sufficient, reliable, and adequate to meet our stated
objectives. We did not perform any tests on the general or application controls
over these audit systems because such testing was beyond the scope of our
work.

Judgmental Sampling. We used judgmental sampling for testing of both
awards and incentives in an effort to ensure adequate coverage in our sample of
headquarters and regional offices and to ensure that the awards sampled
covered our audit timeframe of fiscal year 2008 through fiscal year 2010. Our
judgmental samples contained

     •   29 out of 8,759 SK monetary awards;
     •   10 out of 3,601 time-off awards;
     •   8 out of 89 SO bonuses (including five individuals who reported directly to
         the Chairman) paid in fiscal year 2010 for the performance period ending
         September 30, 2009;
     •   6 out of 41 recruitment bonuses; and
     •   7 out of 31 retention bonuses. 41

We did not project the results of the samples to the entire population as we did
not utilize statistical sampling techniques.

Prior Audit Coverage. We reviewed a complaint pertaining to nonmonetary
awards and reported on our findings and recommendations on March 10, 2010. 42
We found that a former Regional Director used funds from the office’s supply
budget to purchase nonmonetary awards in the form of inscribed glass blocks for
staff members. We determined that the absence of clear criteria to serve as the
basis for making such awards could lead to an appearance of impropriety on the
part of the manager making the award and a perception of unfairness or
favoritism on the part of other staff.




41
   An initial sample was pulled and based on a lack of available documentation from OHR and initial testing
results, the OIG decided that further testing was not necessary as it would not likely alter the overall testing
results.
42
   SEC Office of Inspector General Investigative Memorandum entitled Employee Recognition Program and
Grants of Employee Awards, PI 09-07 (Mar. 10, 2010).

SEC Employee Recognition Program and 3R Incentives                                             August 2, 2011
Report No. 492
                                                  Page 36
                                                                     Appendix III


                                     Criteria

Code of Federal Regulations, Title 5: Administrative Personnel, Part 451-
Awards. Provides information regarding agencies’ award authority,
responsibilities, and restrictions.

Code of Federal Regulations, Title 5: Administrative Personnel, Part 575-
Recruitment, Relocation and Retention Incentives; Supervisory
Differentials; and Extended Assignment Incentives. Provides information
regarding requirements for payment of recruitment, relocation, and retention
incentives.

Code of Federal Regulations, Title 5: Administrative Personnel, Part 250-
Personnel Management in Agencies. Provides information on requirements
for agency human capital plans.

SECM 6-1, Personnel Operating Policies and Procedures, Chapter 451.A,
Employee Recognition Program, February 10, 1993. Describes the
Commission’s policies and procedures for recognizing employees of the
Commission and certain others for their contributions in the form of suggestions,
superior performance, and special acts or services.

SECM 6-1, Personnel Operating Policies and Procedures, Chapter 575.A,
Recruitment Bonuses (July 20, 1993), Chapter 575.B, Relocation Bonuses
(July 20, 1993), Chapter 575.C, Retention Allowances (August 27, 1996).
Describes requirements for payment of recruitment, relocation, and retention
incentives.

Memorandum from John Berry, Director, Office of Personnel Management,
Guidance on Freeze on Discretionary Awards, Bonuses, and Similar
Payments for Federal Employees Serving Under Political Appointments,
CPM 2010-14 (August 3, 2010). Guidance restricting awards, bonuses, and
similar payments for political appointees.




SEC Employee Recognition Program and 3R Incentives                   August 2, 2011
Report No. 492
                                       Page 37
                                                                     Appendix IV


                     List of Recommendations

Recommendation 1:

The Office of Human Resources should implement an internal review process to
review a select number or percentage of awards annually to ensure that
appropriate documentation exists for the awards and needed information is
readily available to support the awards.

Recommendation 2:

The Office of Human Resources should at least annually provide information to
SEC supervisors on relevant parts of the SEC award program, including (1) types
of awards available and procedures for nominating employees for awards, (2)
appropriate types of division-and office-level awards for peer recognition, and (3)
successful award practices.

Recommendation 3:

The Office of Human Resources should dedicate specific resources to develop
and oversee the Employee Recognition Program.

Recommendation 4:

The Office of Human Resources should finalize its policies and procedures for
the Employee Recognition Program within three months and publish them on the
SEC’s Insider. The policies and procedures should include information on
current practices for determining bonuses for Senior Officers, policies for
determining performance-based awards for SK employees, and acceptable
methods of providing informal nonmonetary awards in addition to traditional
nonmonetary awards.

Recommendation 5:

The Office of Human Resources should review and update its existing policies
and procedures on recruitment, relocation, and retention incentives. The update
should ensure that the new policies and procedures reflect appropriate
references to SK and SO employees and include expanded authority for
retention bonuses.




SEC Employee Recognition Program and 3R Incentives                    August 2, 2011
Report No. 492
                                       Page 38
                                                                          Appendix IV


Recommendation 6:

The Office of Human Resources should provide formal training on its revised
policies and procedures and issue information notices to supervisors and
employees as needed to reflect changes in practices and policies.

Recommendation 7:

The Office of Human Resources (OHR), in conjunction with the
Office of Financial Management (OFM), should take the following
actions:

       7a. Develop alternatives for reviewing the SEC award
          budget so that it is competitive with other federal
          agencies’ award budgets.

       7b. Develop and implement a mechanism to reward
          employees for superior or meritorious performance within
          their job responsibilities through lump-sum performance
          awards.

       7c. Determine ways to reduce the time required for
           formulation of budget allocations, including, for example,
           moving responsibility for formulating award budget
           allocations to OFM and having the Office of Information
           Technology walk-in development center develop an
           electronic program to pull payroll data directly from the
           Department of the Interior to facilitate more timely
           completion of budget allocations.

       7d. Put in place a process to make initial award allocations in
          the first quarter of each fiscal year, thereby giving offices
          the ability to make awards throughout the year. Base
          initial allocations on historical data and then refine the
          allocations, as needed, when the SEC’s annual budget
          has been approved.

       7e. Allocate award funds directly to SEC divisions and
          offices instead of placing the initial award funds in OHR’s
          budget, and hold office and division heads responsible
          for monitoring use of the funds.




SEC Employee Recognition Program and 3R Incentives                        August 2, 2011
Report No. 492
                                       Page 39
                                                                     Appendix IV


       7f. Re-examine budgeted amounts for recruitment,
           relocation, and retention incentives to ensure that
           sufficient funds are available, and make supervisors
           aware of available funding so that they can effectively
           use incentives to recruit and retain needed talent.

Recommendation 8:

The Office of Human Resources should develop and train human resources
specialists on a centralized filing system (manual, electronic, or both) for all
awards that contains appropriate documentation to support the awards, including
SF 50 and SEC Form 48 with narrative justification and appropriate approvals.

Recommendation 9:

The Office of Human Resources should implement management controls to
ensure that employees who are subject to disciplinary action are restricted from
receiving awards related to the performance that resulted in the disciplinary
action.

Recommendation 10:

The Office of Human Resources should review the August 12, 2010, cash award
to a Schedule C employee to determine whether it was in violation of the Office
of Personnel Management guidance and, if so, seek recovery of the improper
award.

Recommendation 11:

The Office of Human Resources should consider ways that, as part of the
Employee Recognition Program, it may be able to provide awards to employees
for adopted suggestions submitted to the OIG’s suggestion program.

Recommendation 12:

The Office of Human Resources should revise the service agreement format in
SEC Form 2299, Securities and Exchange Commission Recruitment Bonus
Service Agreement, to incorporate specific reasons that the SEC “may” and
“must” terminate service agreements for recruitment and relocation bonuses.




SEC Employee Recognition Program and 3R Incentives                   August 2, 2011
Report No. 492
                                       Page 40
                                                                      Appendix IV


Recommendation 13:

The Office of Human Resources should develop and train applicable human
resources specialists on the use of a centralized filing system for all relocation,
recruitment, and retention incentives. The centralized filing system should
contain all appropriate documentation to support the incentives, including the SF
50 and the applicable SEC form with the narrative justification for the bonus and
the appropriate approvals.

Recommendation 14:

The Office of Human Resources should identify resources and establish a
timeline to complete the required human capital plan. It should also ensure that
ERP activities are evaluated at least annually to ensure that they align with
human capital plan objectives and strategies.




SEC Employee Recognition Program and 3R Incentives                    August 2, 2011
Report No. 492
                                       Page 41
                                                                                                 Appendix V


                            Management’s Comments




                                            MEMORANDUM

                                              July 25, 2011



TO:             H . David Kotz
                Inspector General

FROM,     ~Cri,,",C.F.m p~                       (!.dtf"r
                Acting Associate Executive Director
                Office of Human Resouroes

                KenncthJobru;on
                CbiefFinaneial otB'Ctt
                                       ~~
                Office of Financial Managemen

SUBJECT:        OHR Management Response to Draft Report No. 492, Audit ofSEC's Employee
                Recognition Program and Recruitment, Relocation, and Retention Incentives


TIlls memorandwn is in response to the Office of Inspector General's Draft Report No. 492, Audit of
SEC's Employee Recognition Program and Recruitment. Relocation, and Retention Incentives. Thank you
for the opportunity to review and respond to this report. We concur with the fourteen ~mmcndations
presented in the report and have begun taking appropriate steps to implement them.

Recommendation 1:

OHR coneW'S. OHR will implement an internal review process to regularly audit a sample of processed
awards foc compliance and to ensure documentation is readily available.

Recommendation 2:

OHR concurs. OHR will develop and distribute annual communications to SEC supervisors on the SEC
Employee Recognition Program and how they can u se it as a tool to increase perfonnance and motivate
staff.

Recommendation 3:

OHR concurs. OHR Employee and Labor Relations has asswned responsibility for the Employee
Recognition Program and will assign a staff member to manage the program.

Recommendation 4:

OHR concurs. OHR has begun drafting a revision to the current Employee Recognition Program policy.
W e will fInalize it and ensure appropriate distribution _ including the SEC Insider _ and communication 10
SEC supervisors.




SEC Employee Recognition Program and 3R Incentives                                               August 2, 2011
Report No. 492
                                                    Page 42
                                                                                                      Appendix V




RecommeDd _t ioD 5:

OIm
OHR concurs
      concun.. The current recruitment,  relocation and
                            recruitment. relocation      retention incentives policies will be updated.,
                                                    and retention                              updated,
          reference to the
including refcn:nce    the expansion of authority for
                                                   for retention
                                                       retention bonuses.
                                                                 bonuses.

RecommelldatJOD
R«omme  Dcbd o D 6:

OHR   coocW"S. OHR will identify and deploy appropriate
OHR concurs.                                appropriate communication and training solut
                                                                                   solutions     ensw-e
                                                                                         ions to ensure
     rupcrvisors and employees und~ any changes and appropriate uses for the
that supervisors                                                              these              tools.
                                                                                 se motivation too

RccommcDdatioD 7.:

                 concur. OHR, in collaboration with th
OHR and OFM concur.                                     the                     Managemcnt, will review
                                                          e Office of Financial Management,
                 benc.btnarlr.: the SEC awards budget with that of other FIRREA agencies.
opportunities to bcnehmaric                                                          agcnciea. lbis
benchmarking will include
                    inc.lude the substantial value of
                                                   oftim&-off               appropriate. As yo
                                                      timo-off awards as appropriate.       youu have DOted,
                                                                                                      noted,
    like other federal
we, like:      Cedcra1ageocies,                  udgetuy limitati
                       agencies, face specific b udgetary           ons for awards in FY 2011 and 2012 per
                                                            IimitatiollB
    Office of
the Office:   Pcnonnci Management
            ofPcrsonncl  Managcmc:nt memo dated Iune            201 I .
                                                     June 10, 2011.

Recommend.doD
R~mme  DcbtioD      7b:

OHR and OFM concur
                 concur.. SECs
                          SEC. negotiated agreement with NTEU         CUrTe:l!.tiy allows
                                                             l'ITEU currently      allow. for merit pay increases
based onOD performance . The recent implementation of a five-leve     performance: management system and
                                                          five-levell performance
current compensation study w ill contribute to efforts to move to a pay-for-performance:
cum:nt                                                                 pay.for-pcrl"ol1T'WlCc mode l in the
future
futwe to reward employees ba    sed on meaningful
                             based     meaningful distinctions
                                                   distinctiollB in pc:rfonnance:.
                                                                    performance. Any ncar-term
                                                                                           ncar-tCJm award
so
solutions           limlted to the parameters in the aforementioned OPM guidance
   lutioos would be limited                                                      guidance: memo.
                                                                                           memo.

Rec:ommelldadoa 7c:.:

OHR and OFM concur. OHR has    bas defined a mcthodoloiY
                                                methodololY for determining appropriate award aUocations
                                                                                                 allocations
b y office or division was used this fiscal }'eIU',
                                            year, which has reduced the tim           o nc.e the operating
                                                                           e required once
                                                                        time
budget was approved
             approved.. ORR       collaborate
                        O HR will co                         dete:nnine appropriate roles and responsibilities
                                     llaborate with OFM to determine
for future aUocations.
           allocations.

RecommeDdation
Reco mme n d_don 7d:

OHR and OFM concur. We recognize th        thee value in rewarding emp loyees for their contributions as soon as
poasiblc fo
possible     ll owing the event. We will establish a process to allocate awards budgets as soo
          foll                                                                                900n
                                                                                                 n as possible
after the enactment of the SEC's regular appropriation, to the extent permitted
                                                                           pennitted by available funds . Durin
                                                                                                          During g
a continuing resolution in the ear   ly months of a fiscal year, it is possible that the agency may not be a ble
                                  early
   affOJ"d to distribute awards budgets. In the event of.
to afford                                                 or. contin
                                                              continuing  resolution,. OHR and OFM will
                                                                     uing resolution,
nonsuit            COO,, and Chairman as needed, to ~ke
consult with the COO                                      rf!Ue an informed decision regarding the awards
budget. as a part of overal
budget,                overalll budget deliberations.
                                       delibenl.tions.

RccommcodatJon
RecOllllneod _tioD 7e:

OHR and OFM concurconcur.. 'Ibis
                           lbis fiscal year, OHR and OFM worked together to allocate award funding
directly to the offices and divisions and
                                       Ilnd distributed memo
                                                        memoss to intemal
                                                                  internal cust omen to infonn them of
                                                                           customers                or the




SEC Employee Recognition Program and 3R Incentives                                                    August 2, 2011
Report No. 492
                                                      Page 43
                                                                                                Appendix V




change in the funding allocation process and emphasize their responsibility for managing within their
award budget.

Recommend.tioa 7f:

OHR and OFM concur. In coUaboration with OFM, OHR will review the execution ofprioryeanJ'
recruitment, relocation, and retention incentives and develop and communicate strategies to ensure that,
within the funds available. the appropriate budget levels are used to effectively attract and retain highly
skilled employees.

R e£ODlDlead. tioD 8:

OHR concurs. A centnilized filing system will be established to increase efficiency and suppon future
documentation reviews. Roles and responsibilities of human resource specialists will be defUled and
communicated through appropriate meaDS.

R eeommeodatioD 9:

OHR. concurs. As part of a process that was established and implemented in May 20 11 to suPPort this
year's award allocation, award nomination forms received through a centralized email box are forwarded
to Employee and Labor Relations, who detemllnes whether the employee has any related disciplinary
action pendiDg or taken. This technical review is completed prior to processing of the award.

R ecommead.tioD 10 :

OHR concurs. The subject cash award was reviewed and found to have hoen CITOneously processed after
the date on which the President restricted such awards. The employee and ber manager were notified of
the error and the personnel action was cancelled. Based on the cancellation, debt recovery has been
initiated by the Department of the Interior (DOl) National Business Center, SEC's payroll services
provider.

R ecommend . tioB 11:

OHR. CORCUn. OHR will propose possible approaches to reward employees for their contributions to the
continuous improvement of the agency and encourage participation in the OIG Employee Suggestion
Pro""",.

R ecomme nd. tioo 12:

OKR concurs. The service agreement w ill be revised in conjunction with the effort to revise the existing
recruitment incentive policy.

Recommcndation13 :

OHR concurs. A centralized filing system will be established to increase efficiency and support future
documentation reviews. Roles and responsibilities ofhwnan resource specialists will be defined and
communicated through appropriate meanS.




SEC Employee Recognition Program and 3R Incentives                                              August 2, 2011
Report No. 492
                                                   Page 44
                                                                                         Appendix V




Re<:ommeodatioo ]4:

OHR concurs. The Program Management Office (PMO) within the Office o f the Chief Operating Officer
(OCOO) has contracted with Booz AUen Hamilton to support the implementation of reconunendations
from the Boston Consulting Group (BCG) o rganizational study. As part of the .w orlcstreams related to
human capital, the contractor team will assist OHR in the development of a human capital plan. Further,
an evaluation schedule will be established to assess Employee Recognition Program results for
compliance and alignment with human capital objectives and strategies.




SEC Employee Recognition Program and 3R Incentives                                       August 2, 2011
Report No. 492
                                               Page 45
                                                                    Appendix VI


     OIG Response to Management’s Comments

OHR concurred with all 14 recommendations addressed to its office and
indicated that it would take action to implement all of the recommendations. In
addition, OFM agreed with the one recommendation jointly addressed to its office
and OHR.

We believe that OHR and OFM’s proposed actions are responsive to our findings
and are pleased that they have already initiated actions to implement some of the
report’s recommendations. Once all of the recommendations are fully
implemented, we believe that the improvements will help strengthen oversight of
the SEC’s employee recognition program and recruitment, relocation, and
retention incentives.




SEC Employee Recognition Program and 3R Incentives                  August 2, 2011
Report No. 492
                                       Page 46
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Telephone: 202-551-6061
Fax:       202-772-9265
E-mail:    oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
